<html>
<title> - THE INSIDER THREAT TO HOMELAND SECURITY: EXAMINING OUR NATION'S SECURITY CLEAR- ANCE PROCESSES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    THE INSIDER THREAT TO HOMELAND SECURITY: 
                      EXAMINING OUR NATION'S SECURITY CLEAR-
                      ANCE PROCESSES
=======================================================================

                                HEARING

                               BEFORE THE 

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-42

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
87-372 PDF                    WASHINGTON : 2014
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>  



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania, Vice   Loretta Sanchez, California
    Chair                            William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Bennie G. Thompson, Mississippi 
Chris Stewart, Utah                      (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
             Kerry Ann Watkins, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Hope Goins, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Merton W. Miller, Associate Director of Investigations, 
  Federal Investigative Services, U.S. Office of Personnel 
  Management:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Gregory Marshall, Chief Security Officer, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Brian A. Prioletti, Assistant Director, Special Security 
  Directorate, National Counterintelligence Executive, Office of 
  Director of National Intelligence:
  Oral Statement.................................................    15
  Prepared Statement.............................................    18
Ms. Brenda S. Farrell, Director, Defense Capabilities and 
  Management, Military and DOD Civilian Personnel Issues, U.S. 
  Government Accountability Office:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21

                                Appendix

Questions From Honorable Peter T. King for Merton W. Miller......    47
Questions From Honorable Peter T. King for Gregory Marshall......    47
Questions From Honorable Peter T. King for Brian A. Prioletti....    49
Questions From Honorable Peter T. King for Brenda S. Farrell.....    50


    THE INSIDER THREAT TO HOMELAND SECURITY: EXAMINING OUR NATION'S 
                      SECURITY CLEARANCE PROCESSES

                              ----------                              


                      Wednesday, November 13, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:29 p.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Higgins, and Keating.
    Mr. King. This Monday, our Nation celebrated Veteran's Day 
to honor the men and women who have fought, and continue to 
fight, for our country. In addition to these brave individuals, 
other Federal employees from the Department of Homeland 
Security, FBI, CIA, the NSA, and many other agencies work every 
day to protect Americans and U.S. interests from threats. These 
patriots deserve our gratitude for their tireless work.
    The unfortunate reality is that they must also guard 
against internal threats. Appalling events over recent years 
involving trusted individuals who have damaged National 
security or committed tragic acts of violence have put a 
spotlight on the need for reforms and rigorous oversight over 
the security clearance process and programs to detect insider 
threats.
    PFC Bradley Manning is serving a 35-year sentence for 
leaking Classified information to WikiLeaks. The next step is 
to prosecute Julian Assange who published the documents.
    In May, media outlets reported that former CIA analyst and 
current NSA contractor Edward Snowden had fled to Hong Kong and 
released a large amount of data on Classified NSA surveillance 
programs.
    On September 16, barely 2 months ago, Aaron Alexis, a DOD 
contractor, shot his way into the Washington, DC Navy Yard and 
killed 12 people.
    All of these individuals were trusted, vetted U.S. security 
professionals who abused that trust and committed heinous acts. 
It is vital that more be done to identify potential insider 
threats.
    While none of these examples involve DHS or DHS personnel, 
the Department of Homeland Security has over 120,000 employees 
with a security clearance. It is vital that we continually 
evaluate the internal processes and procedures for how those 
clearances are investigated, adjudicated, and reviewed.
    In addition to our review of DHS security practices, 
today's witnesses will be asked to evaluate the quality and 
standards for security clearance investigations and 
adjudications, as well as address potential problems limiting 
information sharing between agencies on employees with 
clearances.
    For example, in the Snowden case the after-action review 
completed by the ODNI disclosed that the 2011 background check 
was incomplete. According to press reports, the investigation 
did not verify Snowden's account of a security violation while 
at the CIA, review travel to India Snowden failed to disclose, 
and include interviews with anyone outside of his mother and 
girlfriend. If the investigation had been done properly it 
could have impacted Snowden's clearance. This also raises 
serious questions about what standards are used in reviewing 
the background investigation and adjudicating a case, and why 
one wasn't sent back to the investigator for a more thorough 
review.
    There were nearly 5 million U.S. Government employees or 
contractors with security clearances, including over 1.4 
million with a Top Secret clearance.
    Now is the time to reinforce the message that a security 
clearance is a privilege granted so that individuals can 
protect the United States from threats. Not only can a 
clearance be revoked for cause, but violations must be 
prosecuted to the fullest extent of the law.
    There are a number of reviews underway in the aftermath of 
the Manning, Snowden, and Alexis incidents. It is vital that 
necessary reforms are implemented expeditiously to detect and 
disrupt future insider threat situations.
    These reforms must include an update to the Federal 
guidance for background investigations. in a post-9/11 world, 
security clearances must address evolving threats such as 
radical Islam and cyber crime. Had investigators looked 
differently into Snowden's background they might have 
identified disturbing trends that made him unfit to hold a 
clearance of any kind and a potential insider threat to U.S. 
National security.
    I look forward to hearing more from the witnesses on these 
efforts, including whether or not the 5-year reinvestigation 
for Top Secret clearance-holders is appropriate, what 
additional periodic or continuous monitoring capability exists, 
and what more can be done to safeguard our Classified 
information technology systems from abuse.
    I want to thank all the witnesses for being here today and 
for your work to detect and prevent insider threats.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
    This Monday our Nation celebrated Veteran's Day to honor the men 
and women who have fought, and continue to fight, for our country. In 
addition to these brave individuals, other Federal employees from the 
Department of Homeland Security, FBI, CIA, the NSA, and many other 
agencies work every day to protect Americans and U.S. interests from 
threats. These patriots deserve our gratitude for their tireless work.
    The unfortunate reality is that they must also guard against 
internal threats. Appalling events over recent years involving trusted 
individuals who have damaged National security or committed tragic acts 
of violence have put a spotlight on the need for reforms and rigorous 
oversight over the security clearance process and programs to detect 
insider threats.
  <bullet> PFC Bradley Manning is serving a 35-year sentence for 
        leaking Classified information to WikiLeaks. The next step is 
        to prosecute Julian Assange who published the documents.
  <bullet> In May, media outlets reported that former CIA analyst and 
        current NSA contractor Edward Snowden had fled to Hong Kong and 
        released a large amount of data on Classified NSA surveillance 
        programs.
  <bullet> On September 16, just shy of 2 months ago, Aaron Alexis--a 
        DOD contractor shot his way into the Washington, DC Navy Yard 
        and killed 12 people.
    All of these individuals were vetted, trusted U.S. security 
professionals who abused that trust and committed heinous acts. It is 
vital that more is done to identify potential insider threats.
    While none of those examples involved DHS or DHS personnel, the 
Department of Homeland Security has over 120,000 employees with a 
security clearance. It is vital that we continually evaluate the 
internal processes and procedures for how those clearances are 
investigated, adjudicated, and reviewed.
    In addition to our review of DHS security practices, today's 
witnesses will be asked to evaluate the quality and standards for 
security clearance investigations and adjudications, as well as address 
potential problems limiting information sharing between agencies on 
employees with clearances. For example, in the Snowden case the after-
action review completed by the Office of the Director of National 
Intelligence (ODNI) disclosed that the 2011 background check was 
incomplete. According to the Wall Street Journal, the investigation did 
not verify Snowden's account of a security violation while at the CIA, 
review travel to India Snowden failed to disclose, and include 
interviews with anyone outside of his mother and girlfriend. If the 
investigation had been done properly it could have impacted Snowden's 
clearance. This also raises serious questions about what standards are 
used in reviewing the background investigation and adjudicating a case, 
and why this one wasn't sent back to the investigator for a more 
thorough review.
    There are nearly 5 million U.S. Government employees or contractors 
with security clearances, including over 1.4 million with a Top Secret.
    Now is the time to reinforce the message that a security clearance 
is a privilege granted so that individuals can protect the United 
States from threats. Not only can a clearance be revoked for cause, but 
violations must be prosecuted to the fullest extent of the law.
    There are a number of reviews underway in the aftermath of the 
Manning, Snowden, and Alexis incidents. It is vital that necessary 
reforms are implemented expeditiously to detect and disrupt future 
insider threat situations.
    These reforms must include an update to the Federal guidance for 
background investigations. In a post-9/11 world, security clearances 
must address evolving threats such as radical Islam and cyber crime. 
Had investigators looked differently into Edward Snowden's background 
they might have identified disturbing trends that made him unfit to 
hold a clearance of any kind and a potential insider threat to U.S. 
National security.
    I look forward to hearing more from the witnesses on these efforts, 
including whether or not the 5-year reinvestigation for Top Secret 
clearance holders is appropriate, what additional periodic or 
continuous monitoring capability exists, and what more can be done to 
safeguard our classified information technology (IT) systems from 
abuse.

    Mr. King. I now recognize the Ranking Member, Mr. Higgins, 
for his opening statement, and thank him and his staff for 
their cooperation in preparing for this subcommittee hearing.
    Mr. Higgins. Thank you, Mr. Chairman.
    I would like to thank Chairman King for holding today's 
hearing. I would also like to thank the witnesses for their 
testimony and for their public service.
    This summer the public became very concerned about the 
surveillance tactics the National Security Agency currently 
takes in the interest of security. Former National Security 
Agency contractor Edward Snowden revealed details about the 
National Security Agency surveillance program that collects 
phone calls and monitors records of millions of Americans.
    This prompted Americans to become very interested in 
whether the right to privacy trumps the need for National 
security. Finding this balance is difficult, and according to 
the director of the National Security Agency, General Keith 
Alexander, these Classified programs have been successful. 
According to Alexander, people like Snowden, who reveal 
sensitive information about this country, can cause a grave 
damage to the Nation.
    The widespread questions remain, however: How could Snowden 
have this type of access to National security secrets? Was 
there anything in his background that showed a lack of 
integrity? What does it take to get a security clearance?
    As Congress and the Executive branch were searching for 
answers, a few blocks from the U.S. Capitol Aaron Alexis, a 
lone gunman, took up arms against fellow employees at the Navy 
Yard. Alexis, a contractor, not only had a security clearance, 
but also had a history of arrests and gun infractions.
    As we have pervasive incidents such as these, it is 
imperative that we look at the security clearance process. 
According to the Office of Personnel Management, 4.9 million 
Federal workers and contractors are eligible to hold security 
clearance. At Department of Homeland Security, approximately 
124,000 employees hold clearances.
    These vast numbers grow year by year. It lends to the 
conversation of how these clearances are determined and given.
    In its report to the Ranking Member of the full committee, 
the Government Accountability Office found that the Office of 
Director of National Intelligence has not provided agencies 
with a clearly-defined guidance and procedures to determine if 
a position requires a security clearance. The GAO also noted 
that since the 1990s, quality in the security clearance 
investigations has not been a priority. These are just two 
detrimental flaws in the security clearance process.
    I am pleased to hear that the Office of Management and 
Budget is heading a 120-day review of the Federal clearance 
process. However, it seems a little bit too little, too late. 
The intelligence community has grown greatly since September 11 
and there are examples of their outstanding work.
    In August the efforts of the intelligence community, along 
with Royal Canadian Mounted Police, disrupted a terrorist plot 
in Western New York. Unfortunately, the lack of consistency and 
quality in the security clearance process can place the 
international community in great danger from an insider threat.
    We expect quality performance from our Federal employees. 
Holding a security clearance should be a privilege. It is my 
hope that this hearing can yield solutions that can be included 
in the restoration of the security clearance process.
    I look forward to the witnesses' testimony.
    With that I yield back.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                           November 13, 2013
    This summer, the public became very concerned about surveillance 
tactics that the National Security Agency currently takes in the 
interest of security. Former National Security Agency contractor, 
Edward Snowden, revealed details about National Security Agency 
surveillance programs that collect phone calls and monitor records of 
millions of Americans.
    This prompted Americans to become very interested in whether the 
right to privacy trumps the needs of the country. Finding this balance 
is difficult and according to the director of the National Security 
Agency, General Keith Alexander, these Classified programs have been 
successful. According to Alexander, people like Snowden who reveal 
sensitive information about this country can cause grave damage to the 
Nation.
    The widespread questions remain, however: How could Snowden have 
this type of access to National security secrets? Was there anything in 
his background that showed a lack of integrity? What does it take to 
get a security clearance?
    As Congress and the Executive branch were searching for answers, a 
few blocks from the U.S. Capitol, Aaron Alexis, a lone gunman took up 
arms against fellow employees at the Navy Yard. Alexis, a contractor, 
not only had a security clearance, but also had a history of arrests 
and gun infractions. As we have pervasive incidents such as these, it 
is imperative that we look at the security clearance process.
    According to the Office of Personnel Management 4.9 million Federal 
workers and contractors are eligible to hold a security clearance. At 
the Department of Homeland Security, approximately 124,000 employees 
hold clearances.
    These vast numbers grow year by year. It lends to the conversation 
of how these clearances are determined and given. In its report to the 
Ranking Member of the Full committee, the Government Accountability 
Office found that the Office of the Director of National Intelligence 
has not provided agencies with clearly-defined guidance and procedures 
to determine if a position requires a security clearance.
    GAO has also noted that since the 1990s quality in the security 
clearance investigations has not been a priority. These are just two 
detrimental flaws in the security clearance process. I am pleased to 
hear that the Office of Management and Budget is heading a 120-day 
review of the Federal clearance process. However, it seems as if this 
is a ``better late than never'' opportunity.
    The intelligence community has grown greatly since September 11 and 
there are examples of their outstanding work. In August, the efforts of 
the intelligence community, along with the Royal Canadian Mounted 
Police, disrupted a terrorist plot in Western New York.
    Unfortunately, the lack of consistency and quality in the security 
clearance process can place the IC in grave danger from an insider 
threat. We expect quality performance from our Federal employees. 
Holding a security clearance should be a privilege. It is my hope that 
this hearing can yield solutions that can be included in the 
restoration of the security clearance process.

    Mr. King. I thank the Ranking Member, Mr. Higgins, for his 
statement.
    Other Members of the committee, whether here or not, are 
reminded that opening statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           November 13, 2013
    My years in leadership on this committee have given me great 
insight into the American public's evolving interest in homeland 
security. Matters such as aviation security and emergency preparedness 
usually remain at the forefront of the minds of vast majority of 
Americans, while employment matters may usually strike those who are 
affected. After September 11, the public wanted to know what could be 
done to make sure that another devastating attack did not take place.
    The public also wanted to know how they could help this country 
through either military or civilian service. As the Government began to 
develop solutions, the Department of Homeland Security was established 
to secure the Nation from the many threats it faces. Other Executive 
Orders increased the Government's ability to track Americans who 
engaged with people overseas.
    A sweeping change came to the Federal workforce. The 9/11 
Commissioners recommended that the United States improve its 
intelligence-gathering and information-sharing activities. More and 
more civilians began to be employed in positions that allowed access to 
Classified information that required them to have security clearances.
    Ten years after September 11, the sheer volume of Americans holding 
security clearances was astonishing. According to the Government 
Accountability Office, in 2011, the Office of the Director of National 
Intelligence, the Nation's executive security agent, reported that over 
4.9 million Federal contractors and Government workers held or were 
eligible to hold a security clearance. Many people contact Congress and 
inquire about the clearance process. For some, successful completion of 
the clearance process is a badge of honor. For others, due to various 
circumstances, obtaining a clearance was a hurdle to employment. Some 
questioned why clearances were necessary to perform certain duties that 
may not involve access to Classified material.
    Some long-time Federal employees were concerned that they might be 
required to redo the process when they switch employment at different 
agencies within the Federal Government. The volume of security 
clearances gave me pause. Last summer, I asked the Government 
Accountability Office to conduct an investigation into security 
clearances. GAO found that throughout the Federal Government that there 
are essentially no agreed-upon standards for requiring security 
clearances for Federal jobs. The lack of clear criteria and commonly-
accepted standards may contribute to the exponential growth in Federal 
jobs requiring a security clearance. GAO also found that security 
clearance requirements for Federal jobs that do not involve handling 
National security information may hinder transparency and openness in 
Government. The security clearance issue was at the forefront of my 
mind and the minds of employment-seekers the past few years; however, 
May 2013 changed the game.
    An overwhelming number of Americans became concerned when former 
NSA contractor Edward Snowden leaked the details of classified programs 
to the British newspaper The Guardian. Snowden's security clearance was 
vetted by an outside contractor and, in hindsight, many still wonder if 
Snowden should have had access to such sensitive information. There are 
several reports that Snowden may have omitted or embellished 
information on his personnel background form.
    The same firm that vetted outside contractor Edward Snowden vetted 
Navy Yard shooter Aaron Alexis. On September 16, Alexis, a civilian 
contractor, opened fire at Navy Yard here in Washington, DC. After the 
Navy Yard shooting, it was discovered that Alexis failed to disclose 
information about felony charges, and a Federal personnel report had no 
information about a his previous arrests.
    It is difficult to believe that the Executive branch spends over $1 
billion dollars on background investigations for suitability and 
security clearances, but could not yield Alexis's felony gun charges. 
Despite GAO's insistence, it took leaks and a horrific lone gunman to 
get an Executive branch review. I look forward to the panel's review 
and remind them that access to National security information is a 
privilege that should be regarded with the highest integrity.
    There needs to be uniformity with how security clearances are given 
and in how they are revoked. If revocation or suspension is the rule 
for leaking information, it needs to be applied across the board.

    Mr. King. Right now we are pleased to have a very 
distinguished panel of witnesses before us today on this vital 
topic.
    Mr. Merton Miller serves as the associate director of 
investigations for the Office of Personnel Management Federal 
Investigative Services. OPM's Federal Investigative Services is 
the Federal Government's largest provider of background 
investigations and services, supporting more than 100 Federal 
agencies' personnel security programs. He is responsible for 
FIS operations, policy development, and contract oversight of 
OPM's investigations program, which completes over 2 million 
investigations annually.
    Before joining OPM FIS, Mr. Miller served in the United 
States Air Force, reaching the rank of full colonel before his 
retirement in 2005. During his career, Colonel Miller served 
with the Air Force Office of Special Investigations, 
specializing in criminal counterintelligence, counterterrorism, 
and security investigations and operations. Upon his retirement 
from the military Colonel Miller joined the Department of 
Defense's counterintelligence field activity, directing DOD's 
counterintelligence programs.
    Mr. Gregory Marshall is the chief security officer for the 
Department of Homeland Security. In this capacity Mr. Marshall 
is responsible for security-related issues affecting the 
Department's personnel security, physical security, special 
security, special access programs, and security training and 
awareness.
    Mr. Marshall began his Federal career as a police officer 
with the United States Capitol Police in 1984 and later 
transferred to the Howard County, Maryland Police Department, 
where he retired in 2007. He returned to Federal service when 
he joined DHS as the deputy chief of physical security and was 
later promoted to deputy chief security officer.
    Mr. Brian Prioletti is the assistant director for the 
Special Security Directorate and the National 
counterintelligence executive in the Office of the Director of 
National Intelligence. Mr. Prioletti is responsible for the 
policies and procedures governing the conduct of investigations 
as well as assisting the DNI on determining which agencies 
conduct background investigations and determine eligibility for 
access to Classified information. Prior to joining the ODNI, 
Mr. Prioletti worked at the Central Intelligence Agency from 
1981 until 2013.
    Ms. Brenda Farrell is a director in the Government 
Accountability Office's Defense Capabilities and Management, a 
position she has held since 2007. Her work focuses on military 
and civilian personnel issues, including personnel security 
clearance process concerns.
    Ms. Farrell began her career with GAO in 1981 and has 
served in a number of issue areas associated with National 
security. Prior to her appointment as director, she served as 
an acting director for GAO's strategic issues team, where she 
was responsible for overseeing three major bodies of work 
related to strategic human capital management, Government 
regulation, and decennial census issues.
    I want to thank all of the witnesses for being here today.
    We will begin with Mr. Miller, who is recognized for 5 
minutes. Thank you.

     STATEMENT OF MERTON W. MILLER, ASSOCIATE DIRECTOR OF 
INVESTIGATIONS, FEDERAL INVESTIGATIVE SERVICES, U.S. OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Miller. Thank you, Chairman King, Ranking Member 
Higgins. I want to thank you for letting me testify here today. 
I share your commitment and that of my colleagues here to 
examine the processes and procedures for determining who shall 
be allowed access to our Nation's secrets, granted the 
privilege of serving in a position of public trust, and given 
routine physical and logical access to our Federal facilities.
    Presently, there is a series of steps that must be taken to 
determine whether an individual should be granted a security 
clearance. The process begins when a Federal agency determines 
whether the duties of a particular Federal civilian position, 
military position, or contract position requires access to 
Classified information to perform their duties.
    Once an agency determines that an individual will perform 
work requiring access to Classified information and also has 
determined the level of access--either Confidential, Secret, or 
Top Secret--the agency submits a request to OPM to perform a 
background investigation. The background investigation we 
conduct must conform to Government-wide rules that meet 
investigative standards, adjudicative guidelines, and 
reciprocity mandates.
    The Federal Investigative Standards outline the required 
elements of the investigation. These elements include the 
completion of a questionnaire by the applicant and specify 
investigative leads to be performed by OPM depending on the 
level of clearance sought.
    The completion of a background investigation is dependent 
in part on the voluntary cooperation of sources and of record 
providers. In some instances, essential personnel are not 
available for an interview; members of the public, such as 
former employers or educational institutions are unwilling to 
provide interviews to investigators or to complete forms or 
make records available. For OPM investigators who have 
performed work on the investigative process, they are required 
to perform and complete a detailed summary of the work they 
accomplished.
    Once the investigator completes his or her work and the 
results are reviewed for completeness and delivered to the 
customer agency, OPM's role in the process is complete. 
Following investigative phase of the process, the agency which 
requested the investigation moves into the adjudicative phase. 
It is during this adjudicative phase when a determination is 
made on whether an individual is eligible for access to 
Classified information.
    The decision that an individual shall receive access to 
Classified information is the responsibility of the head of the 
agency employing the individual or his or her designee. The 
agency for which the work is to be performed makes the decision 
to grant eligibility based in part upon the background 
investigation and in part upon other information that may be 
available to the agency, such as the results of a polygraph 
examination if that is required for the position.
    Although there are considerable processes and procedures in 
place today to vet individuals for a security clearance, the 
recent tragic events of the Navy Yard and the high-profile 
security breaches highlights the need to be ever-vigilant in 
assuring that individuals entrusted with access to Classified 
information and individuals with physical and logical access to 
Federal facilities do not present a risk of harm to National 
security or to the safety of our employees.
    At the President's direction and under the leadership of 
OMB, OPM is presently working with its colleagues to identify 
potential improvements in suitability fitness, clearance 
determination procedures, and anything that might help enhance 
employee safety and National security.
    I want to thank you again for the opportunity to testify 
regarding this important issue. I look forward to answering any 
questions you might have.
    [The prepared statement of Mr. Miller follows:]
                 Prepared Statement of Merton W. Miller
                           November 13, 2013
    Chairman King, Ranking Member Higgins, and Members of the 
subcommittee, thank you for asking me to be here today.
    To that end, this subcommittee has asked the Office of Personnel 
Management (OPM) questions about security clearances. I appreciate the 
opportunity to give you a better understanding of OPM's role in the 
security clearance process.
                   1. the security clearance program
    There is a series of steps that must be taken to determine whether 
an individual should be granted a security clearance. The process 
begins when a Federal agency determines whether the duties of a 
particular Federal civilian position or position in the military will 
require the incumbent to have access to Classified information, or that 
an employee of a contractor will require access to Classified 
information in order to perform work under a Government contract. If 
such a determination is made, and if there is no prior eligibility 
determination that is sufficient, under applicable directives, to meet 
that need, the agency will need to determine such eligibility itself.
    OPM conducts 95 percent of the Government background 
investigations. Once an agency determines that the subject will perform 
work that requires a demonstrated, foreseeable need for access to 
Classified information, and that an investigation is required, the 
agency submits a request to OPM that it perform the background 
investigation. OPM performs the investigation on a reimbursable basis 
in accordance with established investigative standards and then 
delivers the report of investigation to the requesting agency.
    I want to emphasize that OPM is not charged with deciding whether 
an individual should or will be found eligible for access to Classified 
information or even with making any recommendation with respect to that 
decision. The decision that an individual should receive access to 
Classified information is ultimately, pursuant to Executive Order 
12968, the exclusive responsibility of the head of the agency employing 
the individual, or his or her designee, following a National security 
adjudication (either by that agency or by a central adjudicative 
facility working on its behalf). The agency for which the work is to be 
performed makes the decision to grant eligibility, based, in part, upon 
the background investigation, and, in part upon other information that 
may be available to the agency, such as a polygraph if required for the 
position. Further, the agency can reopen the investigation or order 
additional investigative work from OPM if it does not have enough 
information to make a determination.
    The security clearance process must conform with Government-wide 
rules that include investigative standards (which may vary, based on 
the level of Classified information to which the individual will have 
access), adjudicative guidelines, and reciprocity mandates. The 
standards outline the required elements of the investigation. These 
elements include the completion of a questionnaire by the applicant and 
specified record and other checks to be performed by OPM depending on 
the level of clearance sought.
    Background investigations are dependent on the voluntary 
cooperation of sources and of records providers, as well as the 
availability and accessibility of references and records. In some 
instances, essential personnel are not available for an interview (for 
example, when members of the Armed Forces are deployed in dangerous 
locations overseas); members of the public are unwilling to provide 
interviews to investigators or to complete inquiry forms; or records 
are not made available (for example, Federal, State, and local records 
may not be accessible to our investigators for a variety of reasons).
    Each OPM investigator who has performed work on the investigation 
prepares a report of investigation that details all work attempted and 
all work completed. These reports of investigation are combined with 
the results of records checks that OPM conducts of record repositories 
specified in the investigative standards. Further, OPM uses ``issue 
codes'' to alert the sponsoring agency of areas of potential 
adjudicative concern. Once the investigator completes his or her work, 
OPM reviews the results package for completeness (and, when efforts to 
complete items were unsuccessful, reporting those efforts) and delivers 
it to the customer agency. The delivery is generally accomplished by 
electronic means to support electronic adjudication processes in place 
at Federal agencies. Once OPM has completed its work and transmitted 
the final investigation file to the customer agency, OPM's role in the 
investigation concludes.
              2. staffing and oversight of investigations
    Adapting to change within the background investigation program is 
not new to the investigative community. For example, during the Clinton 
administration, the decision was made to move large amounts of the 
background investigations work performed by OPM to a contractor 
workforce. The decision was made that OPM should absorb a background 
investigations function performed by the Department of Defense (DoD) 
(with a Federal workforce) into the OPM workforce, leaving OPM with a 
blended workforce of investigators. Today, OPM continues to use a 
combination of Federal employees and contractors to complete background 
investigations. The background investigation workforce has dealt with 
factors that have driven down the need for background investigations--
for example, declines in the size of the Federal workforce that have 
limited hiring, and thus the need for new background investigations to 
factors that have dramatically driven up the need for background 
investigations--for example, background investigation security needs 
following September 11, 2001. OPM and its partners in the background 
investigation community are aware of shifting demands for the 
investigation workforce, and working with a blend of contractors and 
Federal employees allows OPM to adjust its needs according to the 
demands of its customers.
    OPM's contract investigators must conduct investigations to the 
same Federal investigative standards as their Federal counterparts. The 
training curriculum is the same for both. OPM employs a professional 
Federal cadre of certified instructors and instructional system 
specialists to develop and provide an accredited Background 
Investigator Training program, recognized by the Executive branch as 
the National training standard. All of OPM's trainers and a number of 
the other agencies' trainers for the contract investigators attend 
courses at OPM's Federal Investigative Services' National Training 
Center and then administer the same courses to the employees of the 
contractors. OPM conducts oversight to ensure all the terms of the 
contract are being met, including review of contract quality control 
plans, audits, and inspections, including ``check rides'' to observe 
investigators during the investigation process. OPM is vigilant about 
the potential for fraud and falsification both by Government employees 
and by employees of contractors. OPM has taken affirmative steps to 
detect and root out abuses. When instances of fraud or falsification 
are found, OPM takes all appropriate steps to address them. We also 
work closely with our Inspector General and the Department of Justice 
to cooperate with any subsequent investigations. We have taken steps in 
recent years to prevent and detect fraud and falsification both through 
improved workforce training and through additional levels of reviews to 
ensure the integrity of background security clearance investigations.
    The agencies for which work is being performed control who has 
access to their buildings and systems, not OPM, and if an agency has 
concerns relating to a particular employee of a contractor, there are 
avenues available for that agency to take action. The agency may revoke 
the individual's credential and, if appropriate, direct the contractor 
to remove that individual from work on the contract. The agency also 
may request that OPM conduct a reimbursable investigation. And, of 
course, there are avenues for agencies to alert oversight or other law 
enforcement entities if there are potential criminal conduct concerns.
                         3. steps going forward
    During the last 5 years, the Office of Management and Budget (OMB), 
OPM, DoD, and the Office of the Director of National Intelligence 
(ODNI) have worked together on a reform effort to ensure that there is 
an efficient, aligned system for assessing suitability or fitness for 
Federal employment, eligibility for logical and physical access to 
Federal systems and facilities, eligibility for access to Classified 
information, or fitness to perform work under a Federal contract (where 
required by the contract) through background investigations and 
appropriate adjudications. At the direction of Executive Order 13467, 
the Performance Accountability Council (PAC), including OPM, OMB, and 
ODNI, was established to ensure that the work of security clearance 
reform be accomplished in this context and throughout the Executive 
branch.
    Our work together with the PAC has done much to improve reciprocity 
so that agencies can place individuals who have already been vetted 
into new positions without delay and without further expense. In the 
last 3 years, we have enhanced OPM's Central Verification System, 
established as directed by the Intelligence Reform and Terrorism 
Prevention Act to support reciprocity, by expanding the reporting of 
credentialing, suitability, and security determinations from agencies, 
adding new data fields, and enabling enterprise access for intelligence 
community users to search relevant details. We have enhanced and 
professionalized the training of investigators and adjudicators to 
ensure consistency across the Executive branch and promote confidence 
when reciprocity is applied. And our work to create an aligned system 
for investigations will enable greater reciprocity opportunities as we 
now begin to implement revised investigative standards.
    Pursuant to Executive Order 13467, the Director of National 
Intelligence, as the Security Executive Agent, provides guidance and 
oversight of the process that Government agencies use to make 
determinations of eligibility for access to Classified information and 
may amend the current adjudicative criteria (established by the 
President) if the need arises. In addition, the Security Executive 
Agent is responsible for establishing the criteria governing the 
conduct of background investigations related to determinations of 
eligibility for access to Classified information.
    OPM, DoD, and ODNI co-chair the interagency working group chartered 
with establishing the first Federal standards for assessing the quality 
of National security and suitability background investigations 
Government-wide. The proposed standards are currently under Department 
and agency review with a pilot exercise to be initiated in this year to 
validate ease and consistency in application of the standards.
    At the President's direction, under the leadership of the Director 
of OMB, OPM is working with its colleagues on the PAC to review the 
oversight, nature, and implementation of National security, 
credentialing, and fitness standards for individuals working at Federal 
facilities. Our review is focused on steps that can be taken to 
strengthen these processes and implementation of solutions identified 
during the course of recent reform efforts. In particular, we recognize 
that evolution of the security clearance process must include the 
ability to obtain and easily share relevant information on a more 
frequent or real-time basis.
                             4. conclusion
    Thank you for this opportunity to testify, and I would be happy to 
answer any questions you may have.

    Mr. King. Thank you, Mr. Miller.
    Mr. Marshall, you are recognized. Thank you.

  STATEMENT OF GREGORY MARSHALL, CHIEF SECURITY OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Marshall. Thank you, Chairman King, Ranking Member 
Higgins. Good afternoon.
    Thank you for the opportunity to provide testimony on 
personnel security vetting for Federal employees and contract 
personnel for the U.S. Department of Homeland Security. I am 
Greg Marshall, chief security officer of Homeland Security. I 
lead the dedicated men and women who make up the Office of the 
Chief Security Officer.
    I am a career official with nearly 30 years of law 
enforcement experience.
    The mission of my office is to safeguard the Department's 
people, property, and information. Accordingly, I am 
responsible for security-related issues affecting more than 
235,000 DHS employees that comprise the Department.
    The security oversight and guidance authority of my office 
applies across the Department. However, DHS operational 
components play a significant role in managing their workforce, 
including personnel vetting.
    The diverse missions and responsibilities of the Department 
and the personnel used to meet these missions underscore the 
challenges involved with the personnel security discipline. The 
tragic events of Monday, September 16 at the Navy Yard have 
placed the issues of physical security, access control, and 
personnel vetting front and center in the minds of security 
professionals across the Federal landscape.
    I need to make clear, however, that security aims to manage 
risk, not eliminate it. Our job is to do everything we can to 
keep our employees safe, and in doing so we have the benefit of 
policies and procedures, processes and technologies, both 
proven and emerging, to guide and improve our key security 
programs.
    When we consider the security for a Federal facility, 
including access control, we follow the Interagency Security 
Committee standards. Facilities are assessed for risk and 
appropriate countermeasures are employed. The outcome of these 
risk assessments drive the level of protection to include an 
appropriate access control posture. A one-size security 
solution does not and cannot fit all.
    For employees to qualify for access to facilities they must 
undergo a background investigation to establish suitability for 
employment. These investigations are, for the most part, 
conducted by OPM. Contractors are screened in a similar process 
to determine fitness to work on a DHS contract and have 
facility access.
    Background investigations for suitability and fitness 
examine character and conduct, and based upon all available 
information, we make an adjudicative decision concerning a 
person's suitability or fitness for employment or access to 
Classified information.
    It is important to note that any background investigation, 
no matter how rigorous, is no guarantee that all relevant 
information is known, available, or has been included. Also, a 
background investigation may not reliably predict future 
behavior. A background investigation is an exercise in risk 
management establishing some basic facts, but cannot guarantee 
any individual's continuing fitness to carry out their duties 
or to behave in a lawful or safe manner.
    Recent improvements in our ability to manage these inherent 
risks include Homeland Security Presidential Directive 12, 
which mandated a Government-wide standard for secure and 
reliable credential to be used when accessing Federal 
facilities. This credential, known as a PIV card, represents a 
marked improvement over legacy identity cards.
    The background investigation process itself is undergoing 
major Government-wide reform with phased implementation to 
begin this fiscal year. The concept of continuous evaluation 
has been developed to supplement normal reinvestigation reviews 
with a process that examines conduct between normal 
reinvestigation time frames. Relevant security information, 
like a recent arrest, would become available in near-real time, 
helping to ensure that Classified information and/or Federal 
facilities are appropriately safeguarded.
    Finally, this administration's recent information-sharing 
and safeguarding initiative, also known as Insider Threat, 
seeks to complement background investigations and continuous 
evaluation with continuous monitoring. This program will 
incorporate and analyze data in near-real time from a much 
broader set of sources. Its focus is the protection of 
Classified information but its applicability to suitability and 
contractor fitness is evident.
    To conclude, suitability and clearance determinations and 
access control to Federal facilities remains a work in progress 
but are evolving towards dramatic improvement. We have made 
progress but managing employee and facility risks will continue 
to be a challenge.
    Thank you again for the opportunity to testify today and I 
look forward to your questions.
    [The prepared statement of Mr. Marshall follows:]
                 Prepared Statement of Gregory Marshall
                           November 13, 2013
    Chairman King, Ranking Member Higgins, Members of the committee, 
good morning and thank you for the opportunity to provide testimony on 
personnel security.
    I am Greg Marshall, chief security officer of the U.S. Department 
of Homeland Security (DHS). I lead the dedicated men and women who make 
up the Office of the Chief Security Officer. My office is an element of 
the Department's Management Directorate, and I report to the under 
secretary for management.
    The mission of our office is to safeguard the Department's people, 
property, information, and systems. Accordingly, the DHS chief security 
officer is responsible for security-related issues affecting the more 
than 235,000 DHS employees that compose the Department. I exercise DHS-
wide security program authorities in the areas of personnel security, 
physical security, administrative security, special security, identity 
management, special access programs, and security training and 
awareness. I also support the chief information officer in the area of 
IT security policy and the under secretary for intelligence and 
analysis in the protection of intelligence sources and methods, and 
accreditations of Classified facilities.
    The security oversight and guidance authority of my office applies 
across the Department. However, Operational components play a 
significant role in managing the facilities which they inhabit, 
including access to those facilities. The diverse missions and 
responsibilities of the Department underscore the challenges involved 
within the physical security and access control disciplines.
    The tragic events of Monday, September 16 at the Washington Navy 
Yard have placed the issue of physical security, access control, and 
personnel vetting front and center in the minds of security 
professionals across the Federal landscape.
    Shortly after the Navy yard incident, I convened a meeting of the 
Department's Chief Security Officer Council. Each component chief 
security officer (CSO) acknowledged the significance of the Navy Yard 
tragedy to access control and the underlying vetting processes and each 
CSO commented on the complexities of vetting and access, including the 
costs involved. With this in mind, the Department remains committed to 
ensuring that only those persons with a legitimate need to access any 
given facility are allowed to enter, that those persons possess no 
prohibited items, and that the backgrounds of those persons who do 
enter have been vetted to an appropriate level of rigor.
    I would make clear, however, that security involves risk 
management. Our job is to do everything we can to reduce the risk and 
keep our employees safe. In pursuit of our mission, please be assured 
that DHS security leadership and the professionals we manage have the 
benefit of extensive knowledge, training, and experience. We also have 
the benefit of comprehensive policies, procedures, processes, and 
emerging technologies to help guide and improve our key security 
programs.
    For example, when we consider the security posture for a Federal 
facility, including access control, we at DHS follow Interagency 
Security Committee standards. During this process, facilities are 
assessed for risk, and appropriate countermeasures are employed to 
mitigate the risks. Using a decision matrix involving mission 
criticality, the sensitivity of the activities conducted, threats to 
the facility, facility population of persons who work and visit there, 
and other factors, an appropriate Federal Security Level is assigned to 
each facility. Accordingly, the outcomes of these risk assessments 
drive the level of protection for each facility, to include an 
appropriate access control posture. Simply put, a one-size security 
solution does not and cannot fit all facilities.
    For our employees to qualify for access to a Federal DHS facility, 
an employee must undergo a background investigation to establish his or 
her suitability for employment. These investigations are, for the most 
part, conducted by OPM on behalf of DHS. Contractors are screened in a 
process similar to employees in order to determine their fitness to 
work on a DHS contract and have unescorted access to DHS facilities. 
Background investigations for suitability and fitness examine character 
and conduct behaviors, such as criminal history, alcohol and drug use, 
and employment history, among others. Based upon all available 
information, a personnel security specialist makes an adjudicative 
decision concerning a person's suitability or fitness for employment, 
including access to facilities.
    It is important to understand that a background investigation for 
suitability and one for a security clearance processes with multiple 
levels of investigation dependent upon the access required and level of 
risk. A security clearance allows access to Classified information, 
while a favorable suitability or fitness determination allows 
employment and access to facilities. On its own, a background 
investigation for suitability does not permit access to Classified 
information.
    It is also important to note that a background investigation for 
either a suitability determination or a security clearance, no matter 
how rigorous, is no guarantee that every bit of relevant information 
about the individual is available or has been included. For example, 
prior criminal convictions and/or arrest information may not be 
reported in State and/or Federal repositories, often simply due to data 
entry resource constraints. It is these types of checks that are basic 
elements of any Federal employment background investigation.
    Also, it is important to note that a background investigation may 
not be an indicator of future behavior. Even those who have 
successfully undergone the most rigorous set of background checks 
available--even a comprehensive polygraph examination--may someday 
prove untrustworthy. Ultimately, a Federal background investigation 
only examines past behavior and is sometimes based on limited available 
information.
    A Federal background investigation is an exercise in risk 
management, establishing some basic facts such as identity, 
citizenship, criminal history, etc. However, a background investigation 
cannot be characterized, in and of itself, does not guarantee any 
single individual's continuing day-to-day fitness to carry out his or 
her employment responsibilities or to behave in a lawful and safe 
manner.
    With these limitations in mind, there have been several recent 
improvements to the ability of the Government to manage these inherent 
risks.
    First, Homeland Security Presidential Directive 12 (HSPD-12) 
mandated the development and implementation of a Government-wide 
standard for a secure and reliable Personal Identity Verification (PIV) 
card for gaining access to Federally-controlled facilities. To date, 
DHS Headquarters and components have issued over 250,000 PIV cards to 
Federal employees and contractors. For the first time, this process has 
effectively linked the completion of a person's background 
investigation with the issuance to that person of a unique Federal 
identity credential. The PIV card represents a marked improvement over 
the various legacy access/identity cards, but is only a part of any 
solution. As a result, Federal facility access control processes use 
this PIV card and its various authentication mechanisms to verify the 
identity of the holder, link the holder to the card, and link the card 
itself to a database of valid employees and contractors having 
legitimate business at any given facility.
    Second, the background investigation process itself is undergoing a 
major Government-wide reform effort, to include revised Federal 
investigative standards signed jointly by the Director of National 
Intelligence and the Director of the Office of Personnel Management in 
2012, and phased implementation to begin this fiscal year. With the 
Federal investigative standards, the concept of ``continuous 
evaluation'' is being developed to supplement the normal re-
investigation reviews of employees which, under the revised standards, 
will be in 5-year increments, with a Government-led process that 
examines a person's conduct within his or her normal re-investigation 
time frames. As such, relevant security information like a recent 
arrest or conviction for a crime outside of the Federal system, for 
example, would become available on a timelier basis to security 
officials responsible for assessing a person's eligibility for access 
to Classified information, thereby helping to ensure that Classified 
information and/or Federal facilities are appropriately safeguarded. 
``Continuous evaluation'' represents a significant process improvement 
over current capabilities and will mitigate some of the limitations in 
the existing background investigation process discussed above.
    Finally, this administration's recent Information Sharing and 
Safeguarding initiative, also known as ``Insider Threat,'' seeks to 
complement background investigations and continuous evaluation with 
continuous monitoring. Continuous monitoring will incorporate data in 
near-real time from a much broader set of data sources, as compared to 
information that was previously available in the background 
investigation process. The initiative focuses on monitoring certain IT 
systems and incorporates analysis and collation software to aid in the 
identification of behavioral trends that could be indicative of an 
insider threat problem. Strict referral protocols are in place to 
investigate abnormalities. The aim is the detection and mitigation of 
threats to Classified information before any damage can be done. The 
focus of this program is the protection of Classified information, but 
its applicability to other behavioral issues, including suitability and 
contractor fitness, is evident.
    In conclusion, the suitability determinations of and access control 
to Federal facilities by Federal employees and contractors remains a 
work in progress, but is evolving toward dramatic improvement. It is 
our responsibility as DHS security leaders, with the support of 
Congress, to ensure a safe and secure workplace. We have made important 
strides, but assessing and managing employee and facility risks will 
continue to be a challenge in the future. We will continue to work 
every day to meet these challenges. Thank you again for the opportunity 
to testify today.

    Mr. King. Thank you, Mr. Marshall.
    Mr. Prioletti please, 5 minutes. Again, if you go over 5 
minutes don't worry about it. Just a general guideline.

 STATEMENT OF BRIAN A. PRIOLETTI, ASSISTANT DIRECTOR, SPECIAL 
 SECURITY DIRECTORATE, NATIONAL COUNTERINTELLIGENCE EXECUTIVE, 
          OFFICE OF DIRECTOR OF NATIONAL INTELLIGENCE

    Mr. Prioletti. Chairman King, Ranking Member Higgins, and 
distinguished Members of the subcommittee, thank you for the 
invitation to provide information on the Government's practices 
and procedures regarding security clearances and background 
investigations. My statement will address the role of the DNI--
Director of National Intelligence, as a security executive 
agent, his authorities and responsibilities for oversight of 
the security clearance process across the Government, areas in 
need of attention in the current process, and initiatives 
underway to address those areas.
    Pursuant to Executive Order 13467, the DNI, as the security 
executive agent, is responsible for the development and 
oversight of effective, efficient, uniform policies and 
procedures governing the timely conduct of investigations and 
adjudications for eligibility to access Classified information 
or eligibility to hold a sensitive position. The security 
executive agent also serves as the final authority to designate 
agencies to conduct background investigations and determine 
eligibility for access to Classified information, and ensures 
reciprocal recognition of investigations and adjudication 
determinations among agencies.
    A background check is an essential component of the 
security clearance process. It is required prior to making a 
determination for eligibility for access to Classified or 
eligibility to occupy a sensitive position. The 1997 Federal 
Investigative Standards, as amended in 2004, are the current 
standards used to conduct background investigations. The scope 
of the background investigation is dependent upon the level of 
security clearance required.
    For example, a Secret clearance includes National agency, 
local agency, and credit checks. An interview with an 
individual being considered for the clearance is conducted if 
necessary to resolve issues resulting from the required checks.
    A Top Secret clearance requires the above checks as well as 
interviews of the individual being considered for the 
clearance, his or her references, coworkers, supervisors, 
neighbors, and other individuals.
    Regardless of the type of clearance involved, identified 
issues must be fully investigated and resolved prior to any 
adjudication.
    The adjudicative guidelines issued by the White House in 
2005 currently serve as the Government-wide guide for most 
eligibility decisions. The DNI has issued separate adjudicative 
guidelines for sensitive compartmented information, known as 
SCI, and Special Access Program access. Adjudicative decisions 
are made by utilizing the whole-person concept, which is a 
careful weighing of available, reliable information about the 
person, past and present, favorable and unfavorable.
    Recent events involving individuals with clearances have 
further emphasized the importance of a robust security 
clearance program and areas in need of attention in the current 
security clearance process. Under the direction of the 
Performance Accountability Council, known as the PAC, the ODNI, 
in collaboration with OMB, OPM, DOD, and other Federal 
partners, have been leading security clearance reform efforts 
for several years. Although these efforts are still a work in 
progress, when mature they will mitigate adjudicative gaps and 
enhance the Nation's security posture.
    One critical element for a robust security clearance 
process is to establish an effective capability to assess an 
individual's continuing eligibility on a more frequent basis. 
Under current policies and practices, an individual's continued 
eligibility for access to Classified information relies heavily 
on a periodic reinvestigation--essentially a background 
investigation and adjudication conducted every 5 years for a 
Top Secret clearance or every 10 years for Secret clearances.
    The time interval between periodic reinvestigations leaves 
the U.S. Government potentially uninformed as to the behavior 
that could pose a security or counterintelligence risk. 
Continuous evaluation, known as C.E., is a tool that will 
assist in closing this information gap. Per Executive Order 
13467 and the revised Federal Investigation Standards, which 
were signed in 2012, C.E. allows for a review at any time of an 
individual with eligibility or access to Classified information 
or in a sensitive position to ensure that that individual 
continues to meet the requirements for eligibility.
    C.E., as envisioned in the reformed security clearance 
process, includes automated record checks of commercial 
databases, Government databases, and other information lawfully 
available. Manual checks are inefficient and resource-
intensive. The C.E. initiative currently under development will 
enable us to more reliably determine an individual's 
eligibility to hold a security clearance or a sensitive 
position on an on-going basis.
    The DNI's C.E. tool must provide an enterprise-wide 
solution that will ensure timely sharing of relevant 
information across security elements of the Federal Government 
as appropriate. There are a number of on-going pilot studies to 
assess the feasibility of selected automated record checks and 
the utility of publicly-available electronic information to 
include social media sites in the personnel security process.
    While we fully recognize the value of publicly-available 
electronic information and its relevancy from an adjudicative 
perspective, there are resource, privacy, and civil liberty 
concerns that must be addressed as we incorporate such checks 
into our security processes.
    In addition to supporting security clearance 
determinations, robust C.E. initiatives will also support and 
inform the Insider Threat programs. Damage assessments 
regarding individuals involved in unauthorized disclosures of 
Classified information or acts of workplace violence have 
uncovered information that was not discovered during the 
existing security clearance process. Timely knowledge of such 
information might have prompted a security review or increased 
monitoring of that individual.
    We must build an enterprise-wide C.E. program that will 
promote the sharing of trustworthiness, eligibility, and risk 
data within and across agencies to ensure the information is 
readily available for analysis and action.
    Consistency in the quality of these investigations and 
adjudications is another area in need of attention. The revised 
Federal Investigative Standards will provide clear guidance on 
issue identification and resolution. They will also create an 
aligned system for consistent assessment of suitability, 
fitness, or eligibility for access to Classified information 
for Federal employment or to perform work under a Federal 
contract.
    These standards will be implemented through a phased 
approach beginning in 2014 and continuing through 2017. In 
addition, the ODNI, OPM, and DOD are co-chairing a working 
group to develop common standards and metrics for evaluating 
quality and comprehensiveness for background investigations. In 
addition, the DNI has hosted a working group to refine the 
adjudicative guidelines, and recommendations regarding these 
guidelines are in the policy development stage.
    Another initiative supporting a more robust security 
clearance process was the development of the National Training 
Standards, which were approved in August 2012 by the DNI and 
the director of OPM. These training standards create uniform 
training criteria for background investigators, National 
security adjudicators, and suitability adjudicators. Personnel 
mobility makes the application of uniform standards for 
conducting a background investigation and rendering an 
eligibility determination essential.
    The training standards and revised investigative standards 
complement each other and, when both begin implementation in 
2014, will result in a more robust security clearance process 
that supports security clearance reciprocity.
    As a final note, OMB, the DNI, and OPM are engaged in two 
further initiatives that will enhance security clearance 
processing. We are currently revising 5 Code of Federal 
Regulation 732, which will be reissued as 1400, to provide 
clarifying guidance to departments and agencies when 
designating National security-sensitive positions.
    Guidance from the reissued regulation will be used to 
update OPM's position designation tool. This will assist 
departments and agencies in determining position sensitivity 
and the type of clearance processing that will be required for 
each position.
    The DNI is also working with OMB and OPM to revise the 
Standard Form 86, which is the questionnaire for National 
security positions. This form is completed by individuals 
requiring security clearances and is a starting point for the 
security background investigation.
    In accordance with the President's directive, OMB is 
conducting a 120-day review of the security and suitability 
processes. In support of that effort, the DNI, as security 
executive agent, will work in coordination with OPM, DOD, and 
the other agencies to review the policies, procedures, and 
processes related to the initiation, investigation, and 
adjudication of background investigations for personnel 
security, suitability for employment, and fitness for perform 
on a contract.
    I want to emphasize the DNI's resolve to lead these 
initiatives discussed today and to continue the collaborative 
efforts established with OMB, DOD, OPM, and our other Federal 
partners. Thank you for the opportunity to update the 
subcommittee.
    [The prepared statement of Mr. Prioletti follows:]
                Prepared Statement of Brian A. Prioletti
                           November 13, 2013
    Chairman King, Ranking Member Higgins, and distinguished Members of 
the subcommittee, thank you for the invitation to provide information 
on the Government's practices and procedures regarding security 
clearances and background investigations. My statement will address the 
role of the Director of National Intelligence (DNI), as Security 
Executive Agent, his authorities and responsibilities for oversight of 
the security clearance process across Government, areas in need of 
attention in the current process, and initiatives underway to address 
those areas.
            the dni's role in the security clearance process
    Pursuant to Executive Order 13467, the DNI, as the Security 
Executive Agent, is responsible for the development and oversight of 
effective, efficient, uniform policies and procedures governing the 
timely conduct of investigations and adjudications for eligibility for 
access to Classified information or eligibility to hold a sensitive 
position. The Security Executive Agent also serves as the final 
authority to designate agencies to conduct background investigations 
and determine eligibility for access to Classified information, and 
ensures reciprocal recognition of investigations and adjudication 
determinations among agencies.
 the relationship between background checks and the security clearance 
                                process
    A background check is an essential component of the security 
clearance process. It is required prior to making a determination for 
eligibility for access to Classified information or eligibility to 
occupy a sensitive position. The 1997 Federal Investigative Standards, 
as amended in 2004, are the current standards used to conduct 
background investigations. The scope of the background investigation is 
dependent upon the level of security clearance required. A SECRET 
clearance includes National agency, local agency, and credit checks. An 
interview with the individual being considered for the clearance is 
conducted if necessary to resolve issues resulting from the required 
checks. A TOP SECRET clearance requires the above checks as well as 
interviews of the individual being considered for the clearance, and 
his or her references, co-workers, supervisors, neighbors, and other 
individuals. Regardless of the type of clearance involved, identified 
issues must be fully investigated and resolved prior to any 
adjudication.
 the odni's standards and policies for adjudicating security clearance 
                              applications
    The Adjudicative Guidelines issued by the White House in 2005, 
currently serve as the Government-wide guide for most eligibility 
decisions. The DNI has issued separate Adjudicative Guidelines for 
Sensitive Compartmented Information (SCI) and Special Access Program 
access. Adjudicative decisions are made by utilizing the whole-person 
concept, which is the careful weighing of available, reliable 
information about the person, past and present, favorable and 
unfavorable.
   areas of the security clearance process in need of attention and 
                          potential solutions
    Recent events involving individuals with clearances have further 
emphasized the importance of a robust security clearance program and 
areas in need of attention in the current security clearance process. 
Under the direction of the Performance Accountability Council, the 
ODNI, in collaboration with OMB, OPM, DoD, and other Federal partners, 
has been leading security clearance reform efforts for several years. 
Although these efforts are still a work in progress, when mature, they 
will mitigate adjudicative gaps and enhance the Nation's security 
posture.
    One critical element for a robust security clearance process is to 
establish an effective capability to assess an individual's continuing 
eligibility on a more frequent basis. Under current policies and 
practices, an individual's continued eligibility for access to 
Classified information relies heavily on a periodic reinvestigation; 
essentially a background investigation and adjudication conducted every 
5 years for Top Secret clearances or every 10 years for Secret 
clearances. The time interval between periodic reinvestigations leaves 
the U.S. Government potentially uninformed as to behavior that poses a 
security or counterintelligence risk.
    Continuous Evaluation (CE) is a tool that will assist in closing 
this information gap. Per Executive Order 13467 and the revised Federal 
Investigative Standards signed in 2012, CE allows for a review at any 
time of an individual with eligibility or access to Classified 
information, or in a sensitive position, to ensure that the individual 
continues to meet the requirements for eligibility.
    CE, as envisioned in the reformed security clearance process, 
includes automated records checks of commercial databases, Government 
databases, and other information lawfully available. Manual checks are 
inefficient and resource-intensive. The CE initiative currently under 
development will enable us to more reliably determine an individual's 
eligibility to hold a security clearance or sensitive position on an 
on-going basis. The DNI's CE tool must provide an enterprise-wide 
solution that will ensure timely sharing of relevant information across 
security elements of the Federal Government, as appropriate. There are 
a number of on-going pilot studies to assess the feasibility of select 
automated records checks and the utility of publicly available 
electronic information, to include social media sites, in the personnel 
security process. While we fully recognize the value of publicly-
available electronic information and its relevancy from an adjudicative 
perspective, there are resource, privacy, and civil liberty concerns 
that must be addressed as we incorporate such checks into our security 
processes.
    In addition to supporting security clearance determinations, robust 
CE initiatives will also support and inform Insider Threat Programs. 
Damage assessments regarding individuals involved in unauthorized 
disclosures of Classified information or acts of workplace violence 
have uncovered information that was not discovered during the existing 
security clearance process. Timely knowledge of such information might 
have prompted a security review or increased monitoring of the 
individual. We must build an enterprise-wide CE program that will 
promote the sharing of trustworthiness, eligibility, and risk data 
within and across agencies to ensure that information is readily 
available for analysis and action.
    Consistency in the quality of investigations and adjudications is 
another area in need of attention. The revised Federal Investigative 
Standards will provide clear guidance on issue identification and 
resolution. They will also create an aligned system for consistent 
assessment of suitability, fitness, or eligibility for access to 
Classified information for Federal employment or to perform work under 
a Federal contract. The standards will be implemented through a phased 
approach beginning in 2014 and continuing through 2017. In addition, 
ODNI, OPM, and DOD are co-chairing a working group to develop common 
standards and metrics for evaluating quality and comprehensiveness of 
background investigations. Furthermore, ODNI has hosted a working group 
to refine the Adjudicative Guidelines; recommendations regarding these 
guidelines are in the policy development phase.
    Another initiative supporting a more robust security clearance 
process was the development of the National Training Standards, which 
were approved in August 2012 by the DNI and Director of OPM. These 
training standards create uniform training criteria for background 
investigators, National security adjudicators, and suitability 
adjudicators. Personnel mobility makes the application of uniform 
standards for conducting a background investigation and rendering an 
eligibility determination essential. The training standards and the 
revised investigative standards complement each other and when both 
begin implementation in 2014, will result in a more robust security 
clearance process that support security clearance reciprocity.
    As a final note, OMB, the ODNI, and OPM are engaged in two further 
initiatives that will enhance security clearance processing. We are 
currently revising 5 Code of Federal Regulation 732, which will be 
reissued as 1400, to provide clarifying guidance to departments and 
agencies when designating National security sensitive positions. 
Guidance from the reissued regulation will be used to update OPM's 
Position Designation Tool. This will assist departments and agencies in 
determining position sensitivity and the type of security clearance 
processing that will be required for each position. ODNI is also 
working with OMB and OPM to revise the Standard Form 86, Questionnaire 
for National Security Positions. This form is completed by individuals 
requiring security clearances and is the starting point for a 
background investigation. It is imperative that we collect accurate 
information pertinent to today's security and counterintelligence 
concerns.
the dni's role in the president's directive for inter-agency review of 
                         the clearance process
    In accordance with the President's directive, OMB is conducting a 
120-day review of security and suitability processes. In support of 
that effort, the DNI, as Security Executive Agent, will work in 
coordination with the OPM, DoD, and other agencies to review the 
policies, processes, and procedures related to the initiation, 
investigation, and adjudication of background investigations for 
personnel security, suitability for employment, and fitness to perform 
work on a contract.
                                closing
    Over the last 5 years, significant strides have been made in 
improving the security clearance process, particularly in the terms of 
timeliness and aligned National policies that provide the framework for 
consistency across Government. I want to emphasize the DNI's resolve to 
lead the initiatives discussed today and to continue the collaborative 
efforts established with OMB, DoD, OPM, and our other Federal partners. 
I thank you for the opportunity to update the subcommittee at this time 
and ODNI looks forward to working with you on these matters.

    Mr. King. Thank you, Mr. Prioletti.
    Ms. Farrell, you are recognized. Thank you.

STATEMENT OF BRENDA S. FARRELL, DIRECTOR, DEFENSE CAPABILITIES 
  AND MANAGEMENT, MILITARY AND DOD CIVILIAN PERSONNEL ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Farrell. Chairman King, Ranking Member Higgins, thank 
you for the opportunity to be here today to discuss the quality 
of the Federal Government's personnel security clearance 
process. Let me briefly summarize my written statement for the 
record.
    Personnel security clearances allow for access to 
Classified information on a need-to-know basis. Recent events, 
such as unauthorized disclosures of Classified information, 
have shown that there is much more work to be done by Federal 
agencies to help ensure the process functions effectively and 
efficiently so that only trustworthy individuals hold security 
clearances.
    Over the years, GAO has conducted a broad body of work on 
personnel security clearance issues that gives us a unique 
historical perspective. My remarks today are based on our 
reports issued between 2008 and 2013 on DOD's personnel 
security clearance program and Government-wide reform efforts. 
My main message today is that quality--and importantly, quality 
metrics--should be built into every step of the process.
    My written statement is divided into three parts. The first 
addresses the roles and responsibilities of several Executive 
branch agencies involved in the security clearance process.
    For example, in 2008 Executive Order 13467 designated the 
DNI as the security executive agent. As such, the DNI is 
responsible for policies and procedures to help ensure the 
effective, efficient, and timely completion of background 
investigations and adjudications related to determinations of 
eligibility for access to Classified information. Importantly, 
since 2008 reform efforts to improve the personnel security 
clearance process throughout the Government have been 
principally driven and overseen by the Performance 
Accountability Council, which is chaired by the deputy director 
for management at OMB. Executive Order 13467 established this 
governance structure.
    The second part of my written statement addresses the 
different phases of the clearance process. Executive branch 
agencies rely on a multi-phased process that includes 
requirements determination; application; investigation; 
adjudication; appeals, if applicable, where a clearance has 
been denied; and reinvestigation for renewals or upgrade of an 
existing clearance.
    The first step of the process is for the Executive branch 
agency, such as Homeland Security, to determine whether a 
position requires access to Classified information. After an 
individual has been selected for a position that requires a 
personnel security clearance he or she submits an application 
for a clearance. OPM--often contractors--conducts the 
background investigation. Adjudicators from the requesting 
agency use the resulting OPM investigation report and consider 
Federal guidelines to determine whether an applicant is 
eligible for a clearance.
    The last part of my written statement addresses the extent 
to which the Executive branch assesses quality of the process. 
For more than a decade GAO has emphasized the need to build and 
monitor quality throughout the clearance process to promote 
oversight and positive outcomes, such as maximizing the 
likelihood that individuals who are security risk will be 
scrutinized more closely.
    For example, in 2009 we reported concerns with the quality 
of OPM's investigations. We reported that with respect to 
initial Top Secret clearances adjudicated in July 2008 for DOD, 
documentation was incomplete for most of OPM's investigative 
reports.
    We independently estimated that 87 percent of 3,500 
investigative reports that DOD adjudicators used to make a 
clearance eligibility decisions were missing some required 
documentation, such as the verification of all of the 
applicant's employment. We also estimated that about 12 percent 
of the 3,500 reports did not contain the required applicant's 
interview.
    In 2009 we recommended that OPM measure the frequency with 
which its investigative reports met Federal Investigative 
Standards in order to improve the quality of the investigative 
documentation. As of August 2013 OPM had not implemented this 
recommendation.
    In summary, the large number of personnel eligible to hold 
clearances--over 4.9 million--coupled with risk to National 
security underscores the need for a high-quality personnel 
security clearance process.
    Mr. Chairman, this concludes my remarks. I will be pleased 
to take questions when you are ready.
    [The prepared statement of Ms. Farrell follows:]
                Prepared Statement of Brenda S. Farrell
                           November 13, 2013
                             gao highlights
    Highlights of GAO-14-186T, a testimony before the Subcommittee on 
Counterterrorism and Intelligence, Committee on Homeland Security, U.S. 
House of Representatives.
Why GAO Did This Study
    In 2012, the DNI reported that more than 4.9 million Federal 
Government and contractor employees held or were eligible to hold a 
personnel security clearance. Furthermore, GAO has reported that the 
Federal Government spent over $1 billion to conduct more than 2 million 
background investigations in fiscal year 2011. A high-quality process 
is essential to minimize the risks of unauthorized disclosures of 
Classified information and to help ensure that information about 
individuals with criminal activity or other questionable behavior is 
identified and assessed as part of the process for granting or 
retaining clearances. Security clearances may allow personnel to gain 
access to Classified information that, through unauthorized disclosure, 
can in some cases cause exceptionally grave damage to U.S. National 
security. Recent events, such as unauthorized disclosures of Classified 
information, have illustrated the need for additional work to help 
ensure the process functions effectively and efficiently.
    This testimony addresses the: (1) Roles and responsibilities of 
different Executive branch agencies involved in the personnel security 
process; (2) different phases of the process; and (3) extent that 
agencies assess the quality of the process. This testimony is based on 
GAO work issued between 2008 and 2013 on DOD's personnel security 
clearance program and Government-wide suitability and security 
clearance reform efforts. As part of that work, GAO: (1) Reviewed 
statutes, Executive Orders, guidance, and processes; (2) examined 
agency data on timeliness and quality; (3) assessed reform efforts; and 
(4) reviewed samples of case files for DOD personnel.
personnel security clearances.--opportunities exist to improve quality 
                         throughout the process
What GAO Found
    Several agencies in the Executive branch have key roles and 
responsibilities in the personnel security clearance process. Executive 
Order 13467 designates the director of National Intelligence (DNI) as 
the Security Executive Agent, who is responsible for developing 
policies and procedures for background investigations and 
adjudications. The Office of Personnel Management (OPM) conducts 
investigations for most of the Federal Government. Adjudicators from 
agencies, such as the Departments of Defense (DOD) and Homeland 
Security, that request background investigations use the investigative 
report and consider Federal adjudicative guidelines when making 
clearance determinations. Reform efforts to enhance the personnel 
security process throughout the Executive branch are principally driven 
and overseen by the Performance Accountability Council, which is 
chaired by the Deputy Director for Management at the Office of 
Management and Budget (OMB).
    Executive branch agencies rely on a multi-phased personnel security 
clearance process that includes requirements determination, 
application, investigation, adjudication, appeals (if applicable, where 
a clearance has been denied), and reinvestigation (for renewal or 
upgrade of an existing clearance). In the requirements determination 
phase, agency officials must determine whether positions require access 
to Classified information. After an individual has been selected for a 
position that requires a personnel security clearance and the 
individual submits an application for a clearance, investigators--often 
contractors--from OPM conduct background investigations for most 
Executive branch agencies. Adjudicators from requesting agencies use 
the information from these investigations and consider Federal 
adjudicative guidelines to determine whether an applicant is eligible 
for a clearance. If a clearance is denied or revoked by an agency, 
appeals of the adjudication decision are possible. Individuals granted 
clearances are subject to reinvestigations at intervals that are 
dependent on the level of security clearance.
    Executive branch agencies do not consistently assess quality 
throughout the security clearance process, in part because they have 
not fully developed and implemented metrics to measure quality in key 
aspects of the process. For example, GAO reported in May 2009 that, 
with respect to initial Top Secret clearances adjudicated in July 2008 
for DOD, documentation was incomplete for most of OPM's investigative 
reports. GAO also estimated that 12 percent of the 3,500 reports did 
not contain the required personal subject interview. To improve the 
quality of investigative documentation, GAO recommended that OPM 
measure the frequency with which its reports met Federal investigative 
standards. OPM did not agree or disagree with this recommendation, and 
as of August 2013 had not implemented it. Further, GAO reported in 2010 
that agencies do not consistently and comprehensively track the 
reciprocity of personnel security clearances, which is an agency's 
acceptance of a background investigation or clearance determination 
completed by any authorized investigative or adjudicative agency. OPM 
created a metric in early 2009 to track reciprocity, but this metric 
does not track how often an existing security clearance was 
successfully honored. GAO recommended that OMB develop comprehensive 
metrics to track reciprocity. OMB agreed with the recommendation, but 
has not yet fully implemented actions to implement this recommendation.
    Chairman King, Ranking Member Higgins, and Members of the 
subcommittee: Thank you for the opportunity to be here to discuss the 
quality of the Federal Government's personnel security clearance 
process. In 2012, the Director of National Intelligence (DNI) reported 
that more than 4.9 million Federal Government and contractor employees 
held or were eligible to hold a security clearance,\1\ posing 
formidable challenges to those responsible for deciding who should be 
granted a clearance. Personnel security clearances allow for access to 
Classified information on a need-to-know basis. Federal agencies also 
use other processes and procedures to determine if an individual should 
be granted access to certain Government buildings or facilities or be 
employed as a military, Federal civilian, or contractor employee for 
the Federal Government. Separate from, but related to, personnel 
security clearances are determinations of suitability that the 
Executive branch uses to ensure individuals are suitable, based on 
character and conduct, for Federal employment in their agency or 
position. We have reported that the Federal Government spent over $1 
billion to conduct more than 2 million background investigations (in 
support of both personnel security clearances and suitability 
determinations for Government employment outside of the intelligence 
community) in fiscal year 2011.\2\
---------------------------------------------------------------------------
    \1\ Office of the Director of National Intelligence, 2012 Report on 
Security Clearance Determinations (January 2013).
    \2\ GAO, Background Investigations: Office of Personnel Management 
Needs to Improve Transparency of Its Pricing and Seek Cost Savings, 
GAO-12-197 (Washington, DC: Feb. 28, 2012).
---------------------------------------------------------------------------
    A high-quality process is essential in order to minimize the risks 
of unauthorized disclosures of Classified information and to help 
ensure that information about individuals with criminal activity or 
other questionable behavior is identified and assessed as part of the 
process for granting or retaining clearances. Security clearances may 
allow personnel to gain access to Classified information that, through 
unauthorized disclosure, can in some cases cause exceptionally grave 
damage to U.S. National security. Recent events, such as unauthorized 
disclosures of Classified information, have illustrated both the 
potential consequences of such disclosures and the need for additional 
work on the part of Federal agencies to help ensure the process 
functions effectively and efficiently, so that only trustworthy 
individuals obtain and keep security clearances and the resulting 
access to Classified information that clearances make possible. We have 
an extensive body of work on issues related to the personnel security 
clearance process going back over a decade. Since 2008, we have focused 
on the Department of Defense's (DOD) clearance program and the 
Government-wide effort to reform the security clearance process, and 
have reported repeatedly on the need to build quality into the process.
    My testimony today will focus on three topics related to personnel 
security clearances: (1) The roles and responsibilities of the 
different Executive branch agencies involved in the personnel security 
clearance process, (2) the different phases of the security clearance 
process that are typically followed by most Executive branch agencies, 
and (3) the extent that Executive branch agencies assess the quality of 
the security clearance process during these different phases.
    This testimony is based on our reports and testimonies issued from 
2008 through 2013 on DOD's personnel security clearance program and 
Government-wide suitability and security clearance reform efforts. A 
list of these related products appears at the end of my statement. As 
part of the work for these products, we reviewed relevant statutes and 
Executive Orders, Federal guidance, and processes; examined agency 
personnel security clearance policies; examined agency data on the 
timeliness and quality of investigations and adjudications; assessed 
reform efforts; and reviewed a sample of investigative and adjudication 
files for DOD personnel. Further, as part of our on-going effort to 
determine the status of agency actions to address our prior 
recommendations, we reviewed the current proposal to revise a relevant 
Federal regulation regarding position designation.
    The work upon which this testimony is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives. Additional details about the 
scope and methodology can be found in each of these related products.
    agencies' roles and responsibilities in the personnel security 
                           clearance process
    Several agencies in the Executive branch have key roles and 
responsibilities in the Federal Government's personnel security 
clearance process. In a 2008 memorandum, the President called for a 
reform of the security clearance and suitability determination 
processes and subsequently issued Executive Order 13467,\3\ which 
designates the Director of National Intelligence (DNI) as the Security 
Executive Agent. As such, the DNI is responsible for developing 
policies and procedures to help ensure the effective, efficient, and 
timely completion of background investigations and adjudications 
relating to determinations of eligibility for access to Classified 
information and eligibility to hold a sensitive position. Positions 
designated as sensitive are any positions within a department or agency 
where the occupant could bring about, by virtue of the nature of the 
position, a material adverse effect on National security.
---------------------------------------------------------------------------
    \3\ Executive Order No. 13467, Reforming Processes Related to 
Suitability for Government Employment, Fitness for Contractor 
Employees, and Eligibility for Access to Classified National Security 
Information (June 30, 2008).
---------------------------------------------------------------------------
    Further, Executive Order 13467 established a Suitability and 
Security Clearance Performance Accountability Council, commonly called 
the Performance Accountability Council, that is accountable to the 
President for achieving the goals of the reform effort, which include 
an efficient, practical, reciprocal, and aligned system for 
investigating and determining eligibility for access to Classified 
information. Under the Executive Order, this council is responsible for 
driving implementation of the reform effort, including ensuring the 
alignment of security and suitability processes, holding agencies 
accountable for implementation, and establishing goals and metrics for 
progress. The Order also appointed the Deputy Director for Management 
at the Office of Management and Budget (OMB) as the chair of the 
council.\4\ In addition, the Executive Order states that agency heads 
shall assist the Performance Accountability Council and executive 
agents in carrying out any function under the Order, as well as 
implementing any policies or procedures developed pursuant to the 
Order.
---------------------------------------------------------------------------
    \4\ The Performance Accountability Council is comprised of the 
Director of National Intelligence as the Security Executive Agent, the 
Director of OPM as the Suitability Executive Agent, and the Deputy 
Director for Management, Office of Management and Budget, as the chair 
with the authority to designate officials from additional agencies to 
serve as members. As of June 2012, the council included representatives 
from the Departments of Defense, Energy, Health and Human Services, 
Homeland Security, State, Treasury, and Veterans Affairs, and the 
Federal Bureau of Investigation.
---------------------------------------------------------------------------
    Executive branch agencies that request background investigations 
use the information from investigative reports to determine whether an 
applicant is eligible for a personnel security clearance. Two of the 
agencies that grant the most security clearances are DOD and the 
Department of Homeland Security (DHS). DOD accounts for the majority of 
all personnel security clearances, and spent $787 million on 
suitability and security clearance background investigations in fiscal 
year 2011.\5\ Investigators--often contractors--from Federal 
Investigative Services within the Office of Personnel Management (OPM) 
\6\ conduct the investigations for most of the Federal Government.\7\ 
DOD is OPM's largest customer, and its Under Secretary of Defense for 
Intelligence (USD(I)) is responsible for developing, coordinating, and 
overseeing the implementation of DOD policy, programs, and guidance for 
personnel, physical, industrial, information, operations, chemical/
biological, and DOD Special Access Program security. Additionally, the 
Defense Security Service, under the authority, direction, and control 
of USD(I), manages and administers the DOD portion of the National 
Industrial Security Program \8\ for the DOD components and other 
Federal agencies by agreement, as well as providing security education 
and training, among other things.
---------------------------------------------------------------------------
    \5\ GAO, Background Investigations: Office of Personnel Management 
Needs to Improve Transparency of Its Pricing and Seek Cost Savings, 
GAO-12-197 (Washington, DC: Feb. 28, 2012).
    \6\ OPM's Federal Investigative Services employs both Federal and 
contract investigators to conduct work required to complete background 
investigations. The Federal staff constitutes about 25 percent of that 
workforce, while OPM currently also has contracts for investigative 
fieldwork with several investigation firms, constituting the remaining 
75 percent of its investigative workforce.
    \7\ In 2005, the Office of Management and Budget designated OPM as 
the agency responsible for, among other things, the day-to-day 
supervision and monitoring of security clearance investigations, and 
for tracking the results of individual agency-performed adjudications, 
subject to certain exceptions. However, the Office of the Director of 
National Intelligence can designate other agencies as an ``authorized 
investigative agency'' pursuant to 50 U.S.C.  3341(b)(3), as 
implemented through Executive Order 13467. Alternatively, under 5 
U.S.C.  1104(a)(2), OPM can redelegate any of its investigative 
functions subject to performance standards and a system of oversight 
prescribed by OPM under 5 U.S.C.  1104(b). Agencies without delegated 
authority rely on OPM to conduct their background investigations while 
agencies with delegated authority--including the Defense Intelligence 
Agency, National Security Agency, National Geospatial-Intelligence 
Agency, Central Intelligence Agency, Federal Bureau of Investigation, 
National Reconnaissance Office, and Department of State--have been 
authorized to conduct their own background investigations.
    \8\ The National Industrial Security Program was established by 
Executive Order 12829 to safeguard Federal Government Classified 
information that is released to contractors, licensees, and grantees of 
the United States Government. Executive Order 12829, National 
Industrial Security Program (Jan. 6, 1993, as amended).
---------------------------------------------------------------------------
    DHS spent more than $57 million on suitability and security 
clearance background investigations in fiscal year 2011. Within DHS, 
the Chief Security Officer develops, implements, and oversees the 
Department's security policies, programs, and standards; delivers 
security training and education to DHS personnel; and provides security 
support to the DHS components. The Chief of DHS's Personnel Security 
Division, under the direction of the Chief Security Officer, has 
responsibility for personnel security and suitability policies, 
programs, and standards, including procedures for granting, denying, 
and revoking access to Classified information as well as initiating and 
adjudicating personnel security and suitability background 
investigations and periodic reinvestigations of applicants. Within the 
DHS components, the component Chief Security Officers implement 
established personnel security directives and policies within their 
respective components.
    The personnel security clearance process has also been the subject 
of Congressional oversight and statutory reporting requirements. 
Section 3001 of the Intelligence Reform and Terrorism Prevention Act of 
2004 \9\ prompted Government-wide suitability and security clearance 
reform. The act required, among other matters, an annual report to 
Congress--in February of each year from 2006 through 2011--about 
progress and key measurements on the timeliness of granting security 
clearances. It specifically required those reports to include the 
periods of time required for conducting investigations and adjudicating 
or granting clearances. However, the Intelligence Reform and Terrorism 
Prevention Act requirement for the Executive branch to report annually 
on its timeliness expired in 2011. More recently, the Intelligence 
Authorization Act of 2010 \10\ established a new requirement that the 
President annually report to Congress the total amount of time required 
to process certain security clearance determinations for the previous 
fiscal year for each element of the intelligence community.\11\ The 
Intelligence Authorization Act of 2010 additionally requires that those 
annual reports include the total number of active security clearances 
throughout the United States Government, to include both Government 
employees and contractors. Unlike the Intelligence Reform and Terrorism 
Prevention Act of 2004 reporting requirement, the requirement to submit 
these annual reports does not expire.
---------------------------------------------------------------------------
    \9\ Pub. L. No. 108-458 (2004) (relevant sections codified at 50 
U.S.C.  3341).
    \10\ Pub. L. No. 111-259,  367 (2010) (codified at 50 U.S.C.  
3104).
    \11\ This timeliness reporting requirement applies only to the 
elements of the intelligence community; it does not cover non-
intelligence agencies that were covered by the reporting requirements 
in the Intelligence Reform and Terrorism Prevention Act of 2004.
---------------------------------------------------------------------------
                phases of the personnel security process
    To help ensure the trustworthiness and reliability of personnel in 
positions with access to Classified information, Executive branch 
agencies rely on a personnel security clearance process that includes 
multiple phases: Requirements determination, application, 
investigation, adjudication, appeals (if applicable, where a clearance 
has been denied), and reinvestigation (where applicable, for renewal or 
upgrade of an existing clearance). Figure 1 illustrates the steps in 
the personnel security clearance process, which is representative of 
the general process followed by most Executive branch agencies and 
includes procedures for appeals and renewals. While different 
departments and agencies may have slightly different personnel security 
clearance processes, the phases that follow are illustrative of a 
typical process.\12\ Since 1997, Federal agencies have followed a 
common set of personnel security investigative standards and 
adjudicative guidelines for determining whether Federal civilian 
workers, military personnel, and others, such as private industry 
personnel contracted by the Government, are eligible to hold a security 
clearance.
---------------------------------------------------------------------------
    \12\ The general process for performing a background investigation 
for either a Secret or Top Secret clearance is the same; however, the 
level of detail and types of information gathered for a Top Secret 
clearance is more substantial than a Secret clearance. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Requirements Determination Phase
    Executive branch agencies first determine which of their 
positions--military, civilian, or private-industry contractors--require 
access to Classified information and, therefore, which people must 
apply for and undergo a personnel security clearance investigation. 
This involves assessing the risk and sensitivity level associated with 
that position, to determine whether it requires access to Classified 
information and, if required, the level of access. Security clearances 
are generally categorized into three levels: Top Secret, Secret, and 
Confidential.\13\ The level of classification denotes the degree of 
protection required for information and the amount of damage that 
unauthorized disclosure could reasonably be expected to cause to 
National defense.\14\
---------------------------------------------------------------------------
    \13\ A Top Secret clearance is generally also required for access 
to Sensitive Compartmented Information--Classified intelligence 
information concerning or derived from intelligence sources, methods, 
or analytical processes that is required to be protected within formal 
access control systems established and overseen by the Director of 
National Intelligence.
    \14\ Unauthorized disclosure could reasonably be expected to cause: 
(1) ``Damage,'' in the case of confidential information; (2) ``serious 
damage,'' in the case of secret information; and (3) ``exceptionally 
grave damage,'' in the case of Top Secret information. Exec. Order No. 
13526, 75 Fed. Reg. 707 (Dec. 29, 2009).
---------------------------------------------------------------------------
    A sound requirements process is important because requests for 
clearances for positions that do not need a clearance or need a lower 
level of clearance increase investigative workloads and costs. A high 
volume of clearances continue to be processed and a sound requirements 
determination process is needed to effectively manage costs, since 
agencies spend significant amounts annually on National security and 
other background investigations. In addition to cost implications, 
limiting the access to Classified information and reducing the 
associated risks to National security underscore the need for Executive 
branch agencies to have a sound process to determine which positions 
require a security clearance.
    Agency heads are responsible for designating positions within their 
respective agencies as sensitive if the occupant of that position 
could, by virtue of the nature of the position, bring about a material 
adverse effect on National security.\15\ In addition, Executive Order 
12968, issued in 1995, makes the heads of agencies--including Executive 
branch agencies and the military departments--responsible for 
establishing and maintaining an effective program to ensure that access 
to Classified information by each employee is clearly consistent with 
the interests of National security. This order also states that, 
subject to certain exceptions, eligibility for access to Classified 
information shall only be requested and granted on the basis of a 
demonstrated, foreseeable need for access. Further, part 732 of Title 5 
of the Code of Federal Regulations provides requirements and procedures 
for the designation of National security positions, which include 
positions that: (1) Involve activities of the Government that are 
concerned with the protection of the Nation from foreign aggression or 
espionage, and (2) require regular use of or access to Classified 
National security information.\16\
---------------------------------------------------------------------------
    \15\ Sensitivity level is based on the potential of the occupant of 
a position to bring about a material adverse effect on National 
security. Some factors include whether the position requires access to 
Classified information or involves the formulation of security-related 
policy. The sensitivity level of a position then informs the type of 
background investigation required of the individual in that position. 
The relationship between sensitivity and resulting clearances is 
detailed in Figure 2.
    \16\ Those requirements in Part 732 apply to National security 
positions in the competitive service, Senior Executive Service 
positions filled by career appointment within the Executive branch, and 
certain excepted service positions.
---------------------------------------------------------------------------
    Part 732 of Title 5 of the Code of Federal Regulations also states 
that most Federal Government positions that could bring about, by 
virtue of the nature of the position, a material adverse effect on 
National security must be designated as a sensitive position and 
require a sensitivity level designation. The sensitivity-level 
designation determines the type of background investigation required, 
with positions designated at a greater sensitivity level requiring a 
more extensive background investigation. Part 732 establishes three 
sensitivity levels--special-sensitive, critical-sensitive, and 
noncritical-sensitive--which are described in figure 2. According to 
OPM, positions that an agency designates as special-sensitive and 
critical-sensitive require a background investigation that typically 
results in a Top Secret clearance. Noncritical-sensitive positions 
typically require an investigation that supports a Secret or 
Confidential clearance. OPM also defines non-sensitive positions that 
do not have a National security element, and thus do not require a 
security clearance, but still require a designation of risk for 
suitability purposes. That risk level informs the type of investigation 
required for those positions. Those investigations include aspects of 
an individual's character or conduct that may have an effect on the 
integrity or efficiency of the service.
    Figure 2 illustrates the process used by both DOD and DHS to 
determine the need for a personnel security clearance for a Federal 
civilian position generally used Government-wide. 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Application Phase
    Once an applicant is selected for a position that requires a 
personnel security clearance, the applicant must obtain a security 
clearance in order to gain access to Classified information. To 
determine whether an investigation would be required, the agency 
requesting a security clearance investigation conducts a check of 
existing personnel security databases to determine whether there is an 
existing security clearance investigation underway or whether the 
individual has already been favorably adjudicated for a clearance in 
accordance with current standards. If such a security clearance does 
not exist for that individual, a security officer from an Executive 
branch agency: (1) Requests an investigation of an individual requiring 
a clearance; (2) forwards a personnel security questionnaire (Standard 
Form 86) to the individual to complete using OPM's electronic 
Questionnaires for Investigations Processing (e-QIP) system or a paper 
copy; (3) reviews the completed questionnaire; and (4) sends the 
questionnaire and supporting documentation, such as fingerprints and 
signed waivers, to OPM or its investigation service provider.
Investigation Phase
    During the investigation phase, investigators--often contractors--
from OPM's Federal Investigative Services use Federal investigative 
standards and OPM's internal guidance to conduct and document the 
investigation of the applicant. The scope of information gathered in an 
investigation depends on the needs of the client agency and the 
personnel security clearance requirements of an applicant's position, 
as well as whether the investigation is for an initial clearance or a 
reinvestigation to renew a clearance. For example, in an investigation 
for a Top Secret clearance, investigators gather additional information 
through more time-consuming efforts, such as traveling to conduct in-
person interviews to corroborate information about an applicant's 
employment and education. However, many background investigation types 
have similar components. For instance, for all investigations, 
information that applicants provide on electronic applications are 
checked against numerous databases. Both Secret and Top Secret 
investigations contain credit and criminal history checks, while Top 
Secret investigations also contain citizenship, public record, and 
spouse checks as well as reference interviews and an Enhanced Subject 
Interview to gain insight into an applicant's character. Table 1 
highlights the investigative components generally associated with the 
Secret and Top Secret clearance levels. After OPM, or the designated 
provider, completes the background investigation, the resulting 
investigative report is provided to the requesting agencies for their 
internal adjudicators.

 
----------------------------------------------------------------------------------------------------------------
                                                                       Type of Background Investigation
          Type of Information Gathered by Component          ---------------------------------------------------
                                                                       Secret                  Top Secret
----------------------------------------------------------------------------------------------------------------
(1) Personnel security questionnaire: The reported answers    X                         X
 on an electronic SF-85P or SF-86 form.
(2) Fingerprints: Fingerprints submitted electronically or    X                         X
 manually.
(3) National agency check: Data from Federal Bureau of        X                         X
 Investigation, military records, and other agencies as
 required (with fingerprint).
(4) Credit check: Data from credit bureaus where the subject  X                         X
 lived/worked/attended school for at least 6 months.
(5) Local agency checks: Data from law enforcement agencies   X                         X
 where the subject lived/worked/attended school during the
 past 10 years or--in the case of reinvestigations--since
 the last security clearance investigation.
(6) Date and place of birth: Corroboration of information                               X
 supplied on the personnel security questionnaire.
(7) Citizenship: For individuals born outside of the United                             X
 States, verification of U.S. citizenship directly from the
 appropriate registration authority.
(8) Education: Verification of most recent or significant     M                         X
 claimed attendance, degree, or diploma.
(9) Employment: Review of employment records and interviews   M                         X
 with workplace references, such as supervisors and
 coworkers.
(10) References: Data from interviews with subject-           M                         X
 identified and investigator-developed leads.
(11) Data from Federal Bureau of Investigation, military                                X
 records, and other agencies as required (without
 fingerprint).
(12) Former spouse: Data from interview(s) conducted with                               X
 spouse(s) divorced within the last 10 years or since the
 last investigation or reinvestigation.
(13) Neighborhoods: Interviews with neighbors and             M                         X
 verification of residence through records check.
(14) Public records: Verification of issues, such as                                    X
 bankruptcy, divorce, and criminal and civil court cases.
(15) Enhanced Subject Interview: Collection of relevant       \1\                       X
 data, resolution of significant issues or inconsistencies.
----------------------------------------------------------------------------------------------------------------
Source.--DOD and OPM.
Note.--The content and amount of information collected as part of a personnel security clearance investigation
  is dependent on a variety of case-specific factors, including the history of the applicant and the nature of
  the position; however, items 1-15 are typically collected for the types of investigations indicated.
M=Components with this notation are checked through requests for information sent by OPM's Federal Investigative
  Services through the mail.
\1\ The Enhanced Subject Interview was developed by the Joint Reform Team and implemented by OPM in 2011 and
  serves as an in-depth discussion between the interviewer and the subject to ensure a full understanding of the
  applicant's information, potential issues, and mitigating factors. It is included in a Minimum Background
  Investigation, one type of suitability investigation, and can be triggered by the presence of issues in a
  Secret-level investigation.

    In December 2012, the Office of the Director of National 
Intelligence (ODNI) and OPM jointly issued a revised version of the 
Federal investigative standards for the conduct of background 
investigations for individuals that work for or on behalf of the 
Federal Government. According to October 31, 2013 testimony by an ODNI 
official, the revised standards will be implemented through a phased 
approach beginning in 2014 and continuing through 2017.\17\
---------------------------------------------------------------------------
    \17\ Brian A. Prioletti, Assistant Director, Special Security 
Directorate, National Counterintelligence Executive, Office of the 
Director of National Intelligence, Statement for the Record: Open 
Hearing on Security Clearance Reform, testimony before the Senate 
Committee on Homeland Security and Governmental Affairs, 113th Cong., 
1st sess., October 31, 2013.
---------------------------------------------------------------------------
Adjudication and Appeals Phases
    During the adjudication phase, adjudicators from the hiring agency 
use the information from the investigative report along with Federal 
adjudicative guidelines to determine whether an applicant is eligible 
for a security clearance.\18\ To make clearance eligibility decisions, 
the adjudicative guidelines specify that adjudicators consider 13 
specific areas that elicit information about: (1) Conduct that could 
raise security concerns and (2) factors that could allay those security 
concerns and permit granting a clearance.\19\ The adjudication process 
is a careful weighing of a number of variables, to include 
disqualifying and mitigating factors, known as the ``whole-person'' 
concept. For example, when a person's life history shows evidence of 
unreliability or untrustworthiness, questions can arise as to whether 
the person can be relied on and trusted to exercise the responsibility 
necessary for working in a secure environment where protecting National 
security is paramount. As part of the adjudication process, the 
adjudicative guidelines require agencies to determine whether a 
prospective individual meets the adjudicative criteria for determining 
eligibility, including personal conduct and financial considerations. 
If an individual has conditions that raise a security concern or may be 
disqualifying, the adjudicator evaluates whether there are other 
factors that mitigate such risks (such as a good-faith effort to repay 
a Federal tax debt). On the basis of this assessment, the agency may 
make a risk-management decision to grant the security-clearance 
eligibility determination, possibly with a warning that future 
incidents of a similar nature may result in revocation of access.
---------------------------------------------------------------------------
    \18\ For industry personnel, the Defense Security Service (DSS) 
adjudicated clearance eligibility for DOD and 24 other Federal 
agencies, by agreement, using OPM-provided investigative reports. 
However, DOD is in the process of consolidating its adjudication 
facilities, including those for industry personnel. Per DOD 5220.22-M, 
National Industrial Security Program: Operating Manual (Feb. 28, 2006 
incorporating changes Mar. 28, 2013), those agencies are: (1) National 
Aeronautics and Space Administration; (2) Department of Commerce; (3) 
General Services Administration; (4) Department of State; (5) Small 
Business Administration; (6) National Science Foundation; (7) 
Department of the Treasury; (8) Department of Transportation; (9) 
Department of the Interior; (10) Department of Agriculture; (11) 
Department of Labor; (12) Environmental Protection Agency; (13) 
Department of Justice; (14) Federal Reserve System; (15) U.S. 
Government Accountability Office; (16) U.S. Trade Representative; (17) 
U.S. International Trade Commission; (18) U.S. Agency for International 
Development; (19) Nuclear Regulatory Commission; (20) Department of 
Education; (21) Department of Health and Human Services; (22) 
Department of Homeland Security; (23) Federal Communications 
Commission; and (24) Office of Personnel Management.
    \19\ Federal guidelines state that clearance decisions require a 
common-sense determination of eligibility for access to Classified 
information based upon careful consideration of the following 13 areas: 
Allegiance to the United States; foreign influence; foreign preference; 
sexual behavior; personal conduct; financial considerations; alcohol 
consumption; drug involvement; emotional, mental, and personality 
disorders; criminal conduct; security violations; outside activities; 
and misuse of information technology systems. Further, the guidelines 
require adjudicators to evaluate the relevance of an individual's 
overall conduct by considering factors such as the nature, extent, and 
seriousness of the conduct; the circumstances surrounding the conduct, 
to include knowledgeable participation; the frequency and recency of 
the conduct; and the individual's age and maturity at the time of the 
conduct, among others.
---------------------------------------------------------------------------
    If a clearance is denied or revoked, appeals of the adjudication 
decision are generally possible. We have work underway to review the 
process for security clearance revocations. We expect to issue a report 
on this process in the spring of 2014.
Reinvestigation Phase
    Once an individual has obtained a personnel security clearance and 
as long as they remain in a position that requires access to Classified 
National security information, that individual is reinvestigated 
periodically at intervals that are dependent on the level of security 
clearance. For example, Top Secret clearance-holders are reinvestigated 
every 5 years, and Secret clearance-holders are reinvestigated every 10 
years. Some of the information gathered during a reinvestigation would 
focus specifically on the period of time since the last approved 
clearance, such as a check of local law enforcement agencies where an 
individual lived and worked since the last investigation.
    Further, the Joint Reform Team \20\ began an effort to review the 
possibility of continuous evaluations, which would ascertain on a more 
frequent basis whether an eligible employee with access to Classified 
information continues to meet the requirements for access. 
Specifically, the team proposed to move from periodic review to that of 
continuous evaluation, meaning annually for Top Secret and similar 
positions and at least once every 5 years for Secret or similar 
positions, as a means to reveal security-relevant information earlier 
than the previous method, and provide increased scrutiny on populations 
that could potentially represent risk to the Government because they 
already have access to Classified information. The revised Federal 
investigative standards state that the Top Secret level of security 
clearances may be subject to continuous evaluation.
---------------------------------------------------------------------------
    \20\ In 2007, DOD and the Office of the Director of National 
Intelligence (ODNI) formed the Joint Security Clearance Process Reform 
Team, known as the Joint Reform Team, to improve the security clearance 
process Government-wide.
---------------------------------------------------------------------------
 agencies do not consistently assess quality throughout the personnel 
                       security clearance process
    Executive branch agencies do not consistently assess quality 
throughout the personnel security clearance process, in part because 
they have not fully developed and implemented metrics to measure 
quality in key aspects of the personnel security clearance process. To 
promote oversight and positive outcomes, such as maximizing the 
likelihood that individuals who are security risks will be scrutinized 
more closely, we have emphasized, since the late 1990s,\21\ the need to 
build and monitor quality throughout the personnel security clearance 
process. While our work historically was focused on DOD, particularly 
since we placed DOD's personnel security clearance program on our high-
risk list \22\ in 2005 because of delays in completing clearances,\23\ 
we have included DHS in our most recent reviews of personnel security 
clearance issues. Having assessment tools and performance metrics in 
place is a critical initial step toward instituting a program to 
monitor and independently validate the effectiveness and sustainability 
of corrective measures.
---------------------------------------------------------------------------
    \21\ GAO, DOD Personnel: Inadequate Personnel Security 
Investigations Pose National Security Risks, GAO/NSIAD-00-12 
(Washington, DC: Oct. 27, 1999).
    \22\ Every 2 years at the start of a new Congress, GAO issues a 
report that identifies Government operations that are high-risk due to 
their vulnerabilities to fraud, waste, abuse, and mismanagement, or are 
most in need of transformation to address economy, efficiency, or 
effectiveness.
    \23\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, DC: 
Jan. 1, 2005).
---------------------------------------------------------------------------
Guidance Not Developed for Determining if Positions Require a Clearance 
        or for Reviewing Existing Position Designations
    In July 2012, we reported that the DNI, as the Security Executive 
Agent, had not provided agencies clearly-defined policy and procedures 
to consistently determine if a position requires a personnel security 
clearance, or established guidance to require agencies to review and 
revise or validate existing Federal civilian position designations.\24\ 
As a result, we concluded that DHS and DOD, along with other Executive 
branch agencies, do not have reasonable assurance that security 
clearance position designations are correct, which could compromise 
National security if positions are underdesignated, or create 
unnecessary and costly investigative coverage if positions are 
overdesignated.
---------------------------------------------------------------------------
    \24\ GAO, Security Clearances: Agencies Need Clearly Defined Policy 
for Determining Civilian Position Requirements, GAO-12-800 (Washington, 
DC: July 12, 2012).
---------------------------------------------------------------------------
    In the absence of clear guidance, agencies are using a position 
designation tool that OPM designed to determine the sensitivity and 
risk levels of civilian positions that, in turn, inform the type of 
investigation needed.\25\ This tool--namely, the Position Designation 
of National Security and Public Trust Positions--is intended to enable 
a user to evaluate a position's National security and suitability 
requirements so as to determine a position's sensitivity and risk 
levels, which in turn dictate the type of background investigation that 
will be required for the individual who will occupy that position. Both 
DOD and DHS components use the tool. In addition, DOD issued guidance 
in September 2011 \26\ and August 2012 \27\ requiring its personnel to 
use OPM's tool to determine the proper position sensitivity 
designation. A DHS instruction requires personnel to designate all DHS 
positions--including positions in the DHS components--by using OPM's 
position sensitivity designation guidance, which is the basis of the 
tool.\28\
---------------------------------------------------------------------------
    \25\ According to OPM's Federal Investigations Notice No. 10-06, 
Position Designation Requirements (Aug. 11, 2010), the tool is 
recommended for all agencies requesting OPM investigations and required 
for all positions in the competitive service, positions in the excepted 
service where the incumbent can be noncompetitively converted to the 
competitive service, and career appointments in the Senior Executive 
Service.
    \26\ DOD, Washington Headquarters Services, Implementation of the 
Position Designation Automated Tool (Sept. 27, 2011).
    \27\ DOD Instruction 1400.25, Volume 731, DOD Civilian Personnel 
Management System: Suitability and Fitness Adjudication For Civilian 
Employees (Aug. 24, 2012).
    \28\ DHS Management Instruction 121-01-007, Department of Homeland 
Security Personnel Suitability and Security Program (June 2009).
---------------------------------------------------------------------------
    OPM audits, however, have found inconsistency in these position 
designations, and some agencies described problems implementing OPM's 
tool. For example, during the course of our 2012 review, DOD and DHS 
officials raised concerns regarding the guidance provided through the 
tool and expressed that they had difficulty implementing it. 
Specifically, officials from DHS's U.S. Immigration and Customs 
Enforcement stated that the use of the tool occasionally resulted in 
inconsistency, such as over- or under-designating a position, and 
expressed a need for additional clear, easily-interpreted guidance on 
designating National security positions. DOD officials stated that they 
have had difficulty implementing the tool because it focuses more on 
suitability than security, and the National security aspects of DOD's 
positions are of more concern to them than the suitability aspects. 
Further, although the DNI was designated as the Security Executive 
Agent in 2008, ODNI officials noted that the DNI did not have input 
into recent revisions of OPM's position designation tool.
    As a result, we recommended that the DNI, in coordination with the 
Director of OPM and other Executive branch agencies as appropriate, 
issue clearly-defined policy and procedures for Federal agencies to 
follow when determining if Federal civilian positions require a 
personnel security clearance. In written comments on our July 2012 
report, the ODNI concurred with this recommendation. In May 2013, ODNI 
and OPM jointly drafted a proposed revision to the Federal regulations 
on position designation which, if finalized in its current form, would 
provide additional requirements and examples of position duties at each 
sensitivity level. We also recommended that once those policies and 
procedures are in place, the DNI and the Director of OPM, in their 
roles as executive agents, collaborate to revise the position 
designation tool to reflect the new guidance. ODNI and OPM concurred 
with this recommendation and recently told us that they are in the 
process of revising the tool.
    In July 2012, we also reported that the Executive branch did not 
have a consistent process for reviewing and validating existing 
security clearance requirements for Federal civilian positions.\29\ 
According to Executive Order 12968, the number of employees that each 
agency determines is eligible for access to Classified information 
shall be kept to the minimum required, and, subject to certain 
exceptions, eligibility shall be requested or granted only on the basis 
of a demonstrated, foreseeable need for access. During our 2012 review 
of several DOD and DHS components, we found that officials were aware 
of the need to keep the number of security clearances to a minimum but 
were not always subject to a standard requirement to review and 
validate the security clearance needs of existing positions on a 
periodic basis. We found, instead, that agencies' policies provided for 
a variety of practices for reviewing the clearance needs of Federal 
civilian positions. In addition, agency officials told us that their 
policies were implemented inconsistently.
---------------------------------------------------------------------------
    \29\ GAO-12-800.
---------------------------------------------------------------------------
    DOD's personnel security regulation and other guidance \30\ 
provides DOD components with criteria to consider when determining 
whether a position is sensitive or requires access to Classified 
information, and some DOD components also have developed their own 
guidance. According to DHS guidance, supervisors are responsible for 
ensuring that: (1) Position designations are updated when a position 
undergoes major changes (e.g., changes in missions and functions, job 
responsibilities, work assignments, legislation, or classification 
standards), and (2) position security designations are assigned as new 
positions are created. Some DHS components have additional requirements 
to review position designation more regularly to cover positions other 
than those newly created or vacant. For example, U.S. Coast Guard 
guidance \31\ states that hiring officials and supervisors should 
review position descriptions even when there is no vacancy and, as 
appropriate, either revise or review them. In addition, according to 
officials in U.S. Immigration and Customs Enforcement, supervisors are 
supposed to review position descriptions annually during the 
performance review process to ensure that the duties and 
responsibilities on the position description are up-to-date and 
accurate. However, officials stated that U.S. Immigration and Customs 
Enforcement does not have policies or requirements in place to ensure 
any particular level of detail in that review.
---------------------------------------------------------------------------
    \30\ DOD 5200.2-R, Department of Defense Personnel Security Program 
(January 1987, reissued incorporating changes Feb. 23, 1996), as 
modified by Under Secretary of Defense Memorandum, Implementation of 
the Position Designation Automated Tool (May 10, 2011).
    \31\ U.S. Coast Guard, CG-121, Civilian Hiring Guide for 
Supervisors and Managers, ver. 2 (June 11, 2010).
---------------------------------------------------------------------------
    During our 2012 review, DOD and DHS officials acknowledged that 
overdesignating a position can result in expenses for unnecessary 
investigations. When a position is overdesignated, additional resources 
are unnecessarily spent conducting the investigation and adjudication 
of a background investigation that exceeds agency requirements. Without 
a requirement to consistently review, revise, or validate existing 
security clearance position designations, we concluded that Executive 
branch agencies--such as DOD and DHS--may be hiring and budgeting for 
both initial and periodic security clearance investigations using 
position descriptions and security clearance requirements that do not 
reflect National security needs. Moreover, since reviews were not being 
done consistently, DOD, DHS, and other Executive branch agencies did 
not have reasonable assurance that they were keeping to a minimum the 
number of positions that require security clearances on the basis of a 
demonstrated and foreseeable need for access.
    Therefore, we recommended in July 2012 that the DNI, in 
coordination with the Director of OPM and other Executive branch 
agencies as appropriate, issue guidance to require Executive branch 
agencies to periodically review and revise or validate the designation 
of all Federal civilian positions. In written comments on that report, 
the ODNI concurred with this recommendation and stated that as duties 
and responsibilities of Federal positions may be subject to change, it 
planned to work with OPM and other Executive branch agencies to ensure 
that position designation policies and procedures include a provision 
for periodic reviews. OPM stated in its written comments to our report 
that it would work with the DNI on guidance concerning periodic reviews 
of existing designations.
    ODNI and OPM are currently in the process of finalizing revisions 
to the position designation Federal regulation. As part of our on-going 
processes to routinely monitor the status of agency actions to address 
our prior recommendations, we note that the proposed regulation would 
newly require agencies to conduct a one-time reassessment of position 
designations within 24 months of the final regulation's effective date, 
which is an important step towards ensuring that the current 
designations of National security positions are accurate. However, the 
National security environment and the duties and descriptions of 
positions may change over time, thus the importance of periodic review 
or validation. The proposed regulation, if finalized in its current 
form, would not require a periodic reassessment of positions' need for 
access to Classified information as we recommended. We believe this 
needs to be done and, as part of monitoring the status of our 
recommendation, we will continue to review the finalized Federal 
regulation and any related guidance that directs position designation 
to determine whether periodic review or validation is required.
Quality of OPM Investigative Reports Not Measured
    As of August 2013, OPM had not yet implemented metrics to measure 
the completeness of its investigative reports--results from background 
investigations--although we have previously identified deficiencies in 
these reports. OPM supplies about 90 percent of all Federal clearance 
investigations, including those for DOD. For example, in May 2009 we 
reported that, with respect to DOD initial Top Secret clearances 
adjudicated in July 2008, documentation was incomplete for most OPM 
investigative reports. We independently estimated that 87 percent of 
about 3,500 investigative reports that DOD adjudicators used to make 
clearance decisions were missing at least one type of documentation 
required by Federal investigative standards.\32\ The type of 
documentation most often missing from investigative reports was 
verification of all of the applicant's employment, followed by 
information from the required number of social references for the 
applicant and complete security forms. We also estimated that 12 
percent of the 3,500 investigative reports did not contain a required 
personal subject interview. Officials within various Executive branch 
agencies have noted to us that the information gathered during the 
interview and investigative portion of the process is essential for 
making adjudicative decisions.
---------------------------------------------------------------------------
    \32\ Estimates in our May 2009 report were based on our review of a 
random sample of 100 OPM-provided investigative reports for initial Top 
Secret clearances granted in July 2008 by the U.S. Army, U.S. Navy, and 
U.S. Air Force central adjudication facilities and have margins of 
error, based on a 95 percent confidence interval, of +/- 10 percentage 
points or fewer.
---------------------------------------------------------------------------
    At the time of our 2009 review, OPM did not measure the 
completeness of its investigative reports, which limited the agency's 
ability to explain the extent or the reasons why some reports were 
incomplete. As a result of the incompleteness of OPM's investigative 
reports on DOD personnel, we recommended in May 2009 that OPM measure 
the frequency with which its investigative reports meet Federal 
investigative standards, so that the Executive branch can identify the 
factors leading to incomplete reports and take corrective actions.\33\ 
OPM did not agree or disagree with our recommendation.
---------------------------------------------------------------------------
    \33\ GAO, DOD Personnel Clearances: Comprehensive Timeliness 
Reporting, Complete Clearance Documentation, and Quality Measures Are 
Needed to Further Improve the Clearance Process, GAO-09-400 
(Washington, DC: May 19, 2009).
---------------------------------------------------------------------------
    In a subsequent February 2011 report, we noted that OMB, ODNI, DOD, 
and OPM leaders had provided Congressional members with metrics to 
assess the quality of the security clearance process, including 
investigative reports and other aspects of the process.\34\ For 
example, the Rapid Assessment of Incomplete Security Evaluations was 
one tool the Executive branch agencies planned to use for measuring 
quality, or completeness, of OPM's background investigations.\35\ 
However, according to an OPM official in June 2012, OPM chose not to 
use this tool. Instead, OPM stated that it opted to develop another 
tool. In following up on our 2009 recommendations, as of August 2013, 
OPM had not provided enough details on its tool for us to determine if 
the tool had met the intent of our 2009 recommendation, and included 
the attributes of successful performance measures identified in best 
practices, nor could we determine the extent to which the tool was 
being used.
---------------------------------------------------------------------------
    \34\ GAO, High-Risk Series: An Update, GAO-11-278 (Washington, DC: 
Feb. 2011).
    \35\ The Rapid Assessment of Incomplete Security Evaluations tool 
was developed by DOD to track the quality of investigations conducted 
by OPM for DOD personnel security clearance investigations, measured as 
a percent of investigations completed that contained deficiencies.
---------------------------------------------------------------------------
    OPM also assesses the quality of investigations based on voluntary 
reporting from customer agencies. Specifically, OPM tracks 
investigations that are: (1) Returned for rework from the requesting 
agency, (2) identified as deficient using a web-based customer 
satisfaction survey, or (3) identified as deficient through adjudicator 
calls to OPM's quality hotline. However, in our past work, we have 
noted that the number of investigations returned for rework is not by 
itself a valid indicator of the quality of investigative work because 
DOD adjudication officials told us that they have been reluctant to 
return incomplete investigations in anticipation of delays that would 
impact timeliness. Further, relying on agencies to voluntarily provide 
information on investigation quality may not reflect the quality of 
OPM's total investigation workload. We are beginning work to further 
review OPM's actions to improve the quality of investigations.
    We have also reported that deficiencies in investigative reports 
affect the quality and timeliness of the adjudicative process. 
Specifically, in November 2010, we reported that agency officials who 
utilize OPM as their investigative service provider cited challenges 
related to deficient investigative reports as a factor that slows 
agencies' abilities to make adjudicative decisions. The quality and 
completeness of investigative reports directly affects adjudicator 
workloads, including whether additional steps are required before 
adjudications can be made, as well as agency costs. For example, some 
agency officials noted that OPM investigative reports do not include 
complete copies of associated police reports and criminal record 
checks. Several agency officials stated that in order to avoid further 
costs or delays that would result from working with OPM, they often 
choose to perform additional steps internally to obtain missing 
information. According to ODNI and OPM officials, OPM investigators 
provide a summary of police and criminal reports and assert that there 
is no policy requiring inclusion of copies of the original records. 
However, ODNI officials also stated that adjudicators may want or need 
entire records as critical elements may be left out of the 
investigator's summary. For example, according to Defense Office of 
Hearings and Appeals officials, in one case, an investigator's summary 
of a police report incorrectly identified the subject as a thief when 
the subject was actually the victim.
Some Steps Taken to Determine Completeness of Adjudicative Files
    To address issues identified in our 2009 report regarding the 
quality of DOD adjudications, DOD has taken some intermittent steps to 
implement measures to determine the completeness of its adjudicative 
files. In 2009, we reported that some clearances were granted by DOD 
adjudicators even though some required data were missing from the OPM 
investigative reports used to make such determinations.\36\ For 
example, we estimated that 22 percent of the adjudicative files for 
about 3,500 initial Top Secret clearances that were adjudicated 
favorably did not contain all the required documentation, even though 
DOD regulations require that adjudicators maintain a record of each 
favorable and unfavorable adjudication decision and document the 
rationale for granting clearance eligibility to applicants with 
security concerns revealed during the investigation.\37\ Documentation 
most frequently missing from adjudicative files was the rationale for 
granting security clearances to applicants with security concerns 
related to foreign influence, financial considerations, and criminal 
conduct. At the time of our 2009 review, DOD did not measure the 
completeness of its adjudicative files, which limited the agency's 
ability to explain the extent or the reasons why some files are 
incomplete.
---------------------------------------------------------------------------
    \36\ GAO, DOD Personnel Clearances: Comprehensive Timeliness 
Reporting, Complete Clearance Documentation, and Quality Measures Are 
Needed to Further Improve the Clearance Process, GAO-09-400 
(Washington, DC: May 19, 2009).
    \37\ DOD Regulation 5200.2-R, DOD Personnel Security Program (Jan. 
1987, incorporating changes Feb. 23, 1996).
---------------------------------------------------------------------------
    In 2009, we made two recommendations to improve the quality of 
adjudicative files. First, we recommended that DOD measure the 
frequency with which adjudicative files meet requirements, so that the 
Executive branch can identify the factors leading to incomplete files 
and include the results of such measurement in annual reports to 
Congress on clearances. In November 2009, DOD subsequently issued a 
memorandum that established a tool to measure the frequency with which 
adjudicative files meet the requirements of DOD regulation. 
Specifically, the DOD memorandum stated that it would use a tool called 
the Review of Adjudication Documentation Accuracy and Rationales, or 
RADAR, to gather specific information about adjudication processes at 
the adjudication facilities and assess the quality of adjudicative 
documentation. In following up on our 2009 recommendations, as of 2012, 
a DOD official stated that RADAR had been used in fiscal year 2010 to 
evaluate some adjudications, but was not used in fiscal year 2011 due 
to funding shortfalls. DOD stated that it restarted the use of RADAR in 
fiscal year 2012.
    Second, we recommended that DOD issue guidance to clarify when 
adjudicators may use incomplete investigative reports as the basis for 
granting clearances. In response to our recommendation, DOD's November 
2009 guidance that established RADAR also outlines the minimum 
documentation requirements adjudicators must adhere to when documenting 
personnel security clearance determinations for cases with potentially 
damaging information. In addition, DOD issued guidance in March 2010 
that clarifies when adjudicators may use incomplete investigative 
reports as the basis for granting clearances. This guidance provides 
standards that can be used for the sufficient explanation of incomplete 
investigative reports.
Extent of Clearance Reciprocity Not Measured
    Executive branch agencies have not yet developed and implemented 
metrics to track the reciprocity of personnel security clearances, 
which is an agency's acceptance of a background investigation or 
clearance determination completed by any authorized investigative or 
adjudicative agency, although some efforts have been made to develop 
quality metrics. Executive branch agency officials have stated that 
reciprocity is regularly granted, as it is an opportunity to save time 
as well as reduce costs and investigative workloads; however, we 
reported in 2010 that agencies do not consistently and comprehensively 
track the extent to which reciprocity is granted Government-wide.\38\ 
ODNI guidance requires, except in limited circumstances, that all 
intelligence community elements ``accept all in-scope \39\ security 
clearance or access determinations.'' Additionally, OMB guidance \40\ 
requires agencies to honor a clearance when: (1) The prior clearance 
was not granted on an interim or temporary basis; (2) the prior 
clearance investigation is current and in-scope; (3) there is no new 
adverse information already in the possession of the gaining agency; 
and (4) there are no conditions, deviations, waivers, or unsatisfied 
additional requirements (such as polygraphs) if the individual is being 
considered for access to highly-sensitive programs.
---------------------------------------------------------------------------
    \38\ In addition to establishing objectives for timeliness, the 
Intelligence Reform and Terrorism Prevention Act of 2004 established 
requirements for reciprocity, which is an agency's acceptance of a 
background investigation or clearance determination completed by any 
authorized investigative or adjudicative Executive branch agency, 
subject to certain exceptions such as completing additional 
requirements like polygraph testing. Further, in October 2008, ODNI 
issued guidance on the reciprocity of personnel security clearances. 
ODNI, Intelligence Community Policy Guidance 704.4, Reciprocity of 
Personnel Security Clearance and Access Determinations (Oct. 2, 2008).
    \39\ Although there are broad Federal investigative guidelines, the 
details and depth of an investigation varies by agency depending upon 
its mission.
    \40\ Office of Management and Budget, Memorandum for Deputies of 
Executive Departments and Agencies: Reciprocal Recognition of Existing 
Personnel Security Clearances (Dec. 12, 2005); Office of Management and 
Budget, Memorandum for Deputies of Executive Departments and Agencies: 
Reciprocal Recognition of Existing Personnel Security Clearances (July 
17, 2006).
---------------------------------------------------------------------------
    While the Performance Accountability Council has identified 
reciprocity as a Government-wide strategic goal, we have found that 
agencies do not consistently and comprehensively track when reciprocity 
is granted, and lack a standard metric for tracking reciprocity.\41\ 
Further, while OPM and the Performance Accountability Council have 
developed quality metrics for reciprocity, the metrics do not measure 
the extent to which reciprocity is being granted. For example, OPM 
created a metric in early 2009 to track reciprocity, but this metric 
only measures the number of investigations requested from OPM that are 
rejected based on the existence of a previous investigation and does 
not track the number of cases in which an existing security clearance 
was or was not successfully honored by the agency. Without 
comprehensive, standardized metrics to track reciprocity and consistent 
documentation of the findings, decision makers will not have a complete 
picture of the extent to which reciprocity is granted or the challenges 
that agencies face when attempting to honor previously granted security 
clearances.
---------------------------------------------------------------------------
    \41\ GAO, Personnel Security Clearances: Progress Has Been Made to 
Improve Timeliness but Continued Oversight Is Needed to Sustain 
Momentum, GAO-11-65 (Washington, DC: Nov. 19, 2010).
---------------------------------------------------------------------------
    In 2010, we reported that Executive branch officials routinely 
honor other agencies' security clearances, and personnel security 
clearance information is shared between OPM, DOD, and, to some extent, 
intelligence community databases.\42\ However, we found that some 
agencies find it necessary to take additional steps to address 
limitations with available information on prior investigations, such as 
insufficient information in the databases or variances in the scope of 
investigations, before granting reciprocity. For instance, OPM has 
taken steps to ensure certain clearance data necessary for reciprocity 
are available to adjudicators, such as holding interagency meetings to 
determine new data fields to include in shared data. However, we also 
found that the shared information available to adjudicators contains 
summary-level detail that may not be complete. As a result, agencies 
may take steps to obtain additional information, which creates 
challenges to immediately granting reciprocity.
---------------------------------------------------------------------------
    \42\ GAO-11-65.
---------------------------------------------------------------------------
    Further, in 2010 we reported that because there is no Government-
wide standardized training and certification process for investigators 
and adjudicators, according to agency officials, a subject's prior 
clearance investigation and adjudication may not meet the standards of 
the inquiring agency. Although OPM has developed some training, 
security clearance investigators and adjudicators are not required to 
complete a certain type or number of classes. As a result, the extent 
to which investigators and adjudicators receive training varies by 
agency. Consequently, as we have previously reported, agencies are 
reluctant to be accountable for investigations and/or adjudications 
conducted by other agencies or organizations.\43\ To achieve fuller 
reciprocity, clearance-granting agencies seek to have confidence in the 
quality of prior investigations and adjudications.
---------------------------------------------------------------------------
    \43\ GAO, Personnel Clearances: Key Factors to Consider in Efforts 
to Reform Security Clearance Processes, GAO-08-352T (Washington, DC: 
Feb. 27, 2008).
---------------------------------------------------------------------------
    Consequently, we recommended in 2010 that the Deputy Director of 
Management, OMB, in the capacity as chair of the Performance 
Accountability Council, should develop comprehensive metrics to track 
reciprocity and then report the findings from the expanded tracking to 
Congress. Although OMB agreed with our recommendation, a 2011 ODNI 
report found that intelligence community agencies experienced 
difficulty reporting on reciprocity. The agencies are required to 
report on a quarterly basis the number of security clearance 
determinations granted based on a prior existing clearance as well as 
the number not granted when a clearance existed. The numbers of 
reciprocal determinations made and denied are categorized by the 
individual's originating and receiving organizational type: (1) 
Government-to-government, (2) government-to-contractor, (3) contractor-
to-government, and (4) contractor-to-contractor. The report stated that 
data fields necessary to collect the information described above do not 
currently reside in any of the datasets available and the process was 
completed in an agency-specific, semi-manual method. Further, the 
Deputy Assistant Director for Special Security of the Office of the 
Director of National Intelligence noted in testimony in June 2012 that 
measuring reciprocity is difficult, and despite an abundance of 
anecdotes, real data is hard to come by. To address this problem, ODNI 
is developing a web-based form for individuals to submit their 
experience with reciprocity issues to the ODNI. According to ODNI, this 
will allow them to collect empirical data, perform systemic trend 
analysis, and assist agencies with achieving workable solutions.
Recent Efforts and Sustained Leadership Could Facilitate Progress in 
        Assessing Quality
    Several efforts are underway to review the security clearance 
process, and those efforts, combined with sustained leadership 
attention, could help facilitate progress in assessing and improving 
the quality of the security clearance process. After the September 16, 
2013 shooting at the Washington Navy Yard, the President directed the 
Office of Management and Budget, in coordination with ODNI and OPM, to 
conduct a Government-wide review into the oversight, nature, and 
implementation of security and suitability standards for Federal 
employees and contractors. In addition, in September 2013, the 
Secretary of Defense directed an independent review to identify and 
recommend actions that address gaps or deficiencies in DOD programs, 
policies, and procedures regarding security at DOD installations and 
the granting and renewal of security clearances for DOD employees and 
contractor personnel. The primary objective of this review is to 
determine whether there are weaknesses in DOD programs, policies, or 
procedures regarding physical security at DOD installations and the 
security clearance and reinvestigation process that can be strengthened 
to prevent a similar tragedy.
    As previously discussed, DOD and DHS account for the majority of 
security clearances within the Federal Government. We initially placed 
DOD's personnel security clearance program on our high-risk list in 
2005 because of delays in completing clearances.\44\ It remained on our 
list until 2011 because of on-going concerns about delays in processing 
clearances and problems with the quality of investigations and 
adjudications. In February 2011, we removed DOD's personnel security 
clearance program from our high-risk list largely because of the 
Department's demonstrated progress in expediting the amount of time 
processing clearances.\45\ We also noted DOD's efforts to develop and 
implement tools to evaluate the quality of investigations and 
adjudications.
---------------------------------------------------------------------------
    \44\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, DC: 
Jan. 1, 2005).
    \45\ GAO, High-Risk Series: An Update, GAO-11-278 (Washington, DC: 
Feb. 2011).
---------------------------------------------------------------------------
    Even with the significant progress leading to removal of DOD's 
program from our high-risk list, the Comptroller General noted in June 
2012 that sustained leadership would be necessary to continue to 
implement, monitor, and update outcome-focused performance 
measures.\46\ The initial development of some tools and metrics to 
monitor and track quality not only for DOD but Government-wide were 
positive steps; however, full implementation of these tools and 
measures Government-wide have not yet been realized. While progress in 
DOD's personnel security clearance program resulted in the removal of 
this area from our high-risk list, significant Government-wide 
challenges remain in ensuring that personnel security clearance 
investigations and adjudications are high-quality. However, if the 
oversight and leadership that helped address the timeliness issues 
focuses now on the current problems associated with quality, we believe 
that progress in helping Executive branch agencies to assess the 
quality of the security clearance process could be made.
---------------------------------------------------------------------------
    \46\ GAO, Personnel Security Clearances: Continuing Leadership and 
Attention Can Enhance Momentum Gained from Reform Effort, GAO-12-815T 
(Washington, DC: June 21, 2012).
---------------------------------------------------------------------------
    In conclusion, to avoid the risk of damaging, unauthorized 
disclosures of Classified information, oversight of the reform efforts 
to measure and improve the quality of the security clearance process 
are imperative next steps. The progress that was made with respect to 
expediting the amount of time processing clearances would not have been 
possible without committed and sustained Congressional oversight and 
the leadership of the Performance Accountability Council. Further 
actions are needed now to fully develop and implement metrics to 
oversee quality at every step in the process. We will continue to 
monitor the outcome of the agency actions discussed above to address 
our outstanding recommendations.
    Chairman King, Ranking Member Higgins, and Members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to answer any questions that you or other Members of the subcommittee 
may have at this time.

    Mr. King. Thank you, Ms. Farrell.
    Let me thank all the witnesses for their testimony and 
their level of cooperation. I appreciate it very much.
    You may have covered this in some of your testimonies, but 
let me just start. There are several cases I am aware of where 
a person receives a security clearance while they are at one 
agency and then they transfer to another agency. In the mean 
time, the first agency is advised of a problem that has 
developed and that was not passed on to the second agency. Then 
the individual may leave the second agency and go to the 
private sector but they still maintain their clearance.
    In other words, how much cooperation is there between one 
Federal agency and another? If you learned something about an 
employee that was in that particular agency or department who 
had a clearance and they moved on to another one. In other 
words, does it follow the clearance or does it, you know, just 
stay with the departments? Am I making it clear what I am 
saying?
    I don't want to go into the specifics of the case, but 
there is at least one individual who was with a particular 
agency, got his clearance, moved onto another one. After he 
went to the second agency the first agency was advised of 
problems that may have prevented him from getting a clearance 
in the first place, but those problems were never passed on to 
the second agency. Then he went to the private sector after 
that, again, keeping the same Top Secret clearance.
    So I am going to just go across the board and see if any of 
you have any--yes?
    Ms. Farrell. I believe you are talking about reciprocity, 
which is honoring the investigation conducted when one 
transfers from one agency to another, and that is an issue that 
we have raised. The extent to which reciprocity is met is 
unknown because there are no metrics that tell us how many 
people are accepted or how many people are stopped.
    Reciprocity is important because by statute, the 
Intelligence Reform Terrorism Prevention Act of 2004 stated 
that agencies should honor one another's investigations and 
adjudications to the extent possible. There have been other 
guidance from the DNI, from OMB, making it clear when there are 
exceptions to such granting of those clearances, but we do not 
know how well it works.
    There are anecdotes, as you have anecdotes. There are 
stories of someone who has a clearance and it is not accepted 
and they have three clearances done in a year, especially with 
contractors. But the extent to which these clearances are 
accepted, are not accepted is really unknown.
    Mr. King. Well, let's say a person has the clearance, moves 
onto another agency with that clearance, and the first agency 
then is advised that something has come up after the clearance 
was given. I assume that agency is supposed to pass that on to 
the second, right?
    Ms. Farrell. That is something that is specified in 
guidance, that when the attention comes of new information, if 
it is disclosed to the gaining agency then that would be a 
reason not to honor such a clearance. But how often--again, how 
often information is passed along is unknown.
    Mr. King. Anybody else want to comment on this?
    Mr. Prioletti.
    Mr. Prioletti. I just wanted to add to what Brenda said 
that there is an on-going research right now going on through 
the DNI's office where we are meeting with the 16 members of 
the I.C. and gaining information on their reciprocity--how was 
it enacted? How did they make the guidelines? How did they 
determine which people are going to be crossover and which ones 
are not--to try to get a better feel and to gain some of the 
very metrics that Brenda is referring to there, sir.
    Mr. King. Mr. Marshall or Mr. Miller.
    Mr. Marshall.
    Mr. Marshall. Yes, sir. Thank you.
    In DHS we obviously accept reciprocity on its face by 
Executive Order. When we can point to an existing 
investigation, an in-scope investigation, we will honor it on 
its face.
    One of the gaps that we see within DHS is that we are not 
allowed to do any additional checks unless we have derogatory 
information to the contrary. So it would be critical in the 
situation that you describe that that first agency pass that 
information along to the second agency in order for us to take 
an action with respect to the clearance.
    Mr. King. Mr. Miller.
    Mr. Miller. Chairman King, your question is spot-on, the 
issue of where the gaps exist once an investigation has closed 
and then there is a reciprocity decision. For instance, 
somebody with a Top Secret clearance can go 5 years without a 
reinvestigation; however, that doesn't preclude potential new 
criminal history record information, financial problems, or 
other things developing. However, if that information is not 
reported in some way or captured, that remains a gap.
    So, as Greg mentioned, within DHS you can only go--make a 
reciprocity decision based on the last investigation and not 
knowing what may have developed in the mean time. So that 5-
year window becomes a gap, and potentially information could be 
developed that may result in, actually, a different 
adjudication being made if you were aware of it.
    Mr. King. Ms. Farrell and Mr. Prioletti I think both 
mentioned guidance. Is that a directive? Is that required or is 
it just suggested?
    Ms. Farrell. The statute that I mentioned, IRTPA 2004, did 
require that reciprocity be honored. There is guidance in OMB 
guidelines that has certain exceptions that can be extended, 
such as the clearance background investigation is not up-to-
date or additional information has come to light regarding the 
individual.
    There is also DNI guidance that specifies things such as 
the particular position requires a different type of scope of 
background investigation. So there are exceptions for the 
agencies to consider when they are--before they grant such a 
reciprocity.
    Mr. King. Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Just, you know, for the whole panel, you know, according to 
the Office of Personnel Management, almost 5 million Federal 
workers and contractors are eligible to hold a security 
clearance, and at the Department of Homeland Security 
approximately 125,000 employees hold clearances. Given the fact 
that this Aaron Alexis, a lone gunman, took up arms against 
fellow employees at the Navy Yard, Alexis was a contractor and 
he had security clearance but he also had a history of 
arrests--plural. More than one. He had a history of gun 
infractions--plural. More than one.
    In published reports there were other incidences calling 
into question, you know, his mental health. So I suppose my 
question is, how did he get a security clearance in the first 
place?
    Go ahead.
    Mr. Marshall. Yes, sir. I will start. Thank you.
    With respect to Mr. Alexis, and based on what I understand, 
and granted, I don't have any first-hand knowledge; I wasn't 
particularly briefed on it, but based on what I know from media 
accounts and some anecdotal conversations I have had with some 
other folks who had some information, it appears that he had a 
clearance with the Navy and that when he left the Navy and went 
to the contracting firm the clearance was accepted on 
reciprocity, because they had an investigation that they can 
point to.
    In that context let me explain how we do it in Department 
of Homeland Security. The Department of Homeland Security does 
all the fitness adjudications for contractors in the 
Department. The actual adjudication of the investigations, 
however, reside in the Department of Defense.
    So while we have the ability to do the fitness 
determination, the adjudication is done there. So that is how 
it works in Homeland Security.
    Mr. Higgins. Anybody else?
    Go ahead.
    Mr. Miller. Yes. I would like to make a comment just as 
background on Alexis. The investigation that was completed for 
him was completed in 2007. In fact, he was adjudicated in 2008 
by the Department. I am sorry DOD is not here to respond.
    Some of the criminal history information you refer to 
occurred after that 2007 completed investigation, and that is 
the gap. In fact, Mr. Alexis was not due for reinvestigation 
until 10 years after the completion of the case in 2007, so 
that would have been 2017 before there would have been any 
review of what may have developed once he had been cleared.
    Now, Mr. Prioletti has talked about the continuous 
evaluation, the critical need to be able to fill the gap, and 
that is one of the solutions being proposed not only by the DNI 
but by the community is to be able to capture any new criminal 
history record information that might come about.
    Mr. Higgins. Go ahead.
    Mr. Miller. I just wanted to say, one of the initiatives 
on-going right now--if the FBI were here they would talk about 
a program called Rap Back. Rap Back is going to provide a 
capability within the Department--within the Executive branch 
and across Federal Government--that if there has been a 
fingerprint check done on an individual for a background 
investigation and in the future should new criminal history 
information become developed, the FBI will be notifying, 
actually the OPM to notify the Federal agency that you have new 
results. So that could occur a week after the close of an 
investigation, a year, 2 years.
    So with Alexis, that criminal history record that was 
developed in Texas of that incident with a weapon would have 
been notified through the FBI back to the Department to let 
them know there is an individual that has new criminal history 
record information. So that is part of the C.E. solution in the 
future and we are looking to find other ways to provide 
information to fill those gaps.
    Mr. Higgins. Yes. I would say, look, this is not an exact 
science, but it is a pretty sensitive issue when you process 
people for security clearance. That should be a pretty tight 
criteria. My sense is that while it is good that they are 
looking at ways to tighten that up, I am shocked that, you 
know, somebody that has a security clearance that any arrest 
incident prospectively would not trigger something to the 
respective authorities to remove or at least suspend that 
clearance so that, you know, the issue could be adjudicated.
    It just seems to me, again, that when you are issuing so 
many of these or making eligible so many people for security 
clearances that, forget about reinvestigations, there should be 
a better process in place to ensure that instantaneously, 
should something occur that would, you know, result in somebody 
being denied clearance, that information should be made 
available to determine whether or not that clearance can be 
continued and/or at least suspended until such time as there is 
a clarity about, you know, what had occurred here.
    That is all I have, Mr. Chairman.
    Mr. King. Gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I guess the best person that I would ask is Mr. Prioletti 
this question: What essential information do background checks 
neglect to include in the existing process, which largely 
depends on a huge component of self-reporting by persons 
applying for it? Are there things that you can highlight that 
might be more helpful or areas that are, you know, not included 
but that--could you share with us the reason for that?
    Mr. Prioletti. Sir, the information that is gained during 
the investigative process is based upon the adjudicative 
standards that we mentioned earlier that came out in 2005 from 
the White House, and they cover 13 generic areas ranging from 
finances to foreign national contacts and everything in 
between. We do our adjudicative--excuse me--we do the 
investigative process based upon information that will gain us 
insight into those areas so that we can make an informed 
adjudicative decision.
    I don't believe it is the areas that we are missing as much 
as the comprehensiveness of gaining that information. I believe 
Mr. Marshall and Mr. Miller both have commented on the ability 
to get that information, and there are some areas where we 
could improve on.
    One of the biggest areas, I believe, where we need to 
improve on are some of our National and local agency checks--
the ability to get criminal responses on individuals. Based on 
a conversation earlier, there are somewhere in the area of 
17,000-plus local law enforcement and Federal law enforcement 
agencies that have information on individuals. They are not all 
electronically connected to an ability to get that information 
and that would certainly help improve our ability.
    Mr. Keating. Yes. I was thinking, I was a prosecutor before 
I was here in office, and sometimes we would have cases and 
they would reflect on a person's status in State government and 
there really wasn't that linkage there either electronically, 
as well. We would affirmatively do that but it is not a precise 
science because there was not a requirement.
    So I think we have an idea that everything can be done 
electronically and technologically today, but it just doesn't 
work that well. Particularly if you are dealing with State 
crimes or State activities, the process of that often is so 
slow just to get into the State, let alone to try and link it 
to the Federal. There would be quite serious delays.
    Here is one more question I think I have a sense of, but in 
the last stage of appeals on security clearance issues it 
leaves DHS and goes to the Secret Service. Is that correct?
    Could you explain, anyone, why that decision was made there 
instead of keeping it in a panel within DHS or--and why Secret 
Service would be that last? How cumbersome is that, given the 
staffing there?
    Mr. Marshall. Yes, sir. I can answer that.
    It varies. There are three stages to the security appeal 
process. There is the personnel security chief; and then it 
goes to the second-level deciding authority, and in my 
organization I am that person; and then if it is not resolved 
at the second level it goes to the, what I call the three-judge 
panel at the Secret Service.
    The reason it is in the Secret Service is because that is 
where it was when DHS was formed. Obviously we are a legacy 
agency comprised of many organizations and they already had 
that function within the Secret Service, so it just made sense 
at the time to, because it was already a functioning body and 
already had their policies and procedures in place, just to 
leave it there.
    I know there has been some question since on whether or not 
that is appropriate and whether they should be rotated in and 
out and made up of members of other agencies who may sit on 
that, and that is still being discussed. But that is how it 
evolved to the three-judge panel at the Secret Service.
    Mr. Keating. Thank you. It is amazing the legacy issues 
with Homeland Security.
    I will yield back, Mr. Chairman.
    Mr. King. Thank you, Mr. Keating.
    As a follow-up to what Mr. Keating was asking you about, 
you know, the electronic records, assuming that everything 
could be done electronically, how cooperative do you find State 
and local governments in giving you the information if you ask 
for it?
    Mr. Prioletti. Well, sir, quite honestly, I believe that I 
would have to defer to Mr. Miller on that one, as he directly 
deals with those organizations.
    Mr. King. Mr. Miller.
    Mr. Miller. Chairman King, it varies candidly with over 
17,000-plus law enforcement entities out there. It varies from 
from location to location, State to State. In fact, there are 
different statutes.
    There is a 5 U.S. Code 9101 actually requires agencies to 
share criminal history record information with the Federal 
Government. However, 9101 doesn't go far enough to actually 
outline specifically the information, so the preponderance of 
the information being shared today actually just addressed the 
charge and the disposition, not necessarily the facts 
surrounding and the circumstances of the arrest.
    So again, it varies from State to State. In fact, not to go 
over old history, but we actually had to go to court in one 
location to actually force the local government to share 
criminal history record information with the Federal 
Government, and we were successful.
    Mr. King. Anybody else wish to comment on that?
    Ms. Farrell.
    Ms. Farrell. I think Mr. Miller can speak to the actual 
information sharing, but we are aware when we did our work in 
2010 and at other times, agency adjudicators--and this is from 
a number of agencies--12, 14--would comment to us that the 
summary information in the background investigations did not 
give the details regarding police or criminal records that was 
available, that that information had been summarized by the OPM 
investigator to a point that it raised a lot of questions for 
the adjudicators.
    So this goes back to the issue of quality with what is 
required. Are we getting the best quality from what is required 
before we start expanding it and adding additional 
requirements?
    Mr. King. On a separate issue on this, without starting any 
interdepartmental feuds or anything else, but are there any 
agencies within the intelligence community or within the 
Federal Government who are not willing to cooperate as far as 
giving personnel records of their former employees--like, for 
instance, going from one intelligence component to another or 
to somebody else in the Federal Government? Is it your 
experience that anyone is more reluctant than others to fully 
cooperate as far as giving personnel information?
    Mr. Prioletti. Sir, to the best of my knowledge they all 
are cooperating at various levels, depending upon the 
information to be shared. But I have not encountered any 
specific incidences where one I.C. organization would not share 
with another.
    Mr. King. Yes.
    Ms. Farrell. I can add to that.
    During the course of our work with the I.C. we are aware 
that they use the Scattered Castles database, and nothing was 
brought to our attention within the I.C. community having 
access to that. I think the issues evolve more when you are 
crossing from the non-I.C. world into the I.C. and what is 
shared and what is not shared or back from the I.C. to a non-
I.C.
    Because there are different databases. OPM has a database; 
DOD has a database; the I.C. has a database. That sometimes can 
present issues with reciprocity and some of the issues that we 
have discussed.
    Mr. King. Apart from the need for improvement on the actual 
investigative reports, do you think any improvements are needed 
on the adjudicative end as to what standards should be used, 
what thresholds there should be?
    Ms. Farrell. Our work is concentrated at DOD on the 
adjudication portion and we have found issues with the 
adjudication when we did our work back in 2006 and 2008. We 
found similar issues with the adjudication files as we did with 
OPM's investigative files.
    We made recommendations regarding guidance that was needed 
to document when perhaps an applicant was not available for an 
interview, to document what attempts had been made to do so and 
why that applicant was not available. DOD developed such 
guidance. DOD also took steps to measure the frequency for 
which their adjudication reports met the Federal adjudicative 
guidelines and other actions to monitor and oversee that 
adjudication process.
    I cannot speak to the Homeland Security adjudication 
process.
    Mr. King. Mr. Marshall.
    Mr. Marshall. Yes, sir. Thank you.
    One of the issues that is troubling to me and a gap that I 
recognize--and it is probably something that we are all going 
to be working on in this 120-day review that the President 
ordered--is a gap I see in suitability adjudication. Mental 
health is not one of the adjudicative criteria within 
suitability or fitness and I really think that needs to be 
addressed.
    It is addressed in the revised guidelines for National 
security clearances, and Mr. Prioletti mentioned that. But we--
it doesn't appear in 5 CFR 731 for suitability, and the 
suitability like criteria we apply to contractors, and I really 
think it needs to be.
    Mr. King. You know, considering the large number--I think 
Mr. Higgins and I said 4.9 million, 5 million people with these 
clearances, and obviously a lot of the investigative work is 
done by private contractors. We have seen that. Can any of you 
comment on whether there is a different level of quality--
better or worse--between the Government carrying out the 
investigation or private contractors? Are there other standards 
for the private contractors? Are they uniform standards?
    Mr. Miller. I can speak to that.
    Mr. King. Yes, sir.
    Mr. Miller. I managed the contract at Federal workforce. 
First off, there is no difference in the way we clear contract 
workforce versus Federal workforce relative to background 
investigations. Second is the quality of investigations are the 
same. They have got to investigate to the same standards and 
they have got to meet the same quality standards, both Federal 
and contract employees.
    Mr. King. Anybody else wish to comment?
    Yes, Ms. Farrell.
    Ms. Farrell. Our work has found that the--it is unknown, 
really, the extent to the quality of investigations. We have 
data that does show incompleteness when you look at OPM's 
investigations compared to the Federal Investigative 
Guidelines.
    Is there a difference between the oversight when a 
contractor conducts the investigation and a Federal employee? 
What we are saying is there are not measures or steps put in 
place to make sure that that background investigation does meet 
Federal standards regardless of whether it is conducted by a 
contractor or a Federal employee.
    Mr. King. What standards are there in selecting a 
contractor to carry out the investigation? Are they uniform?
    Mr. Miller. Yes. The standards are uniform for contractors 
that perform background investigative work. They all have to be 
trained to the same level, and obviously through the contract 
process, when they come in to actually compete for the work 
they all have to meet the same standards when they are selected 
to do contract work for the Government.
    Mr. King. Mr. Higgins.
    Mr. Higgins. I have no further questions. Does the staff 
have any suggested questions?
    Mr. King. Okay. I want to thank you for your testimony 
today. Sorry for the delay at the beginning. We got called over 
for votes. It seems it never fails. There are never any votes 
until we have witnesses here to testify at a hearing, so I 
regret that.
    I want to thank you for your patience. I want to thank you 
for your testimony.
    Again, I think all of us appreciate--I am sure I can speak 
for Mr. Higgins on this--the level of cooperation and the fact 
that all of you appreciate the importance and the significance 
of this and the cooperation you have given to the staff. So I 
thank you for your testimony.
    Brian, do you have anything?
    Mr. Higgins. Nope.
    Mr. King. Okay. With that, without objection, the 
subcommittee stands adjourned. Thank you very much.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

      Questions From Honorable Peter T. King for Merton W. Miller
    Question 1. As I understand it, the adjudicating agency only gets a 
summary of the information that has been gathered during the background 
investigation. What entity does the actual packaging of the summary 
that is in turn submitted to the adjudicating agency?
    Answer. Response was not received at the time of publication.
    Question 2. In terms of the background investigators themselves, 
whether they are a Government employee or a contracted employee, what 
types of standards are they held to in order to complete their jobs? In 
other words, have these individuals been subjected to the scrutiny of 
background investigations?
    Answer. Response was not received at the time of publication.
    Question 3. Are the forms that applying individuals use to fill out 
during the background investigation phase considered antiquated? If so, 
what types of updates to these forms may be necessary to address the 
needs of background investigators to adequately gather pertinent and 
meaningful information?
    Answer. Response was not received at the time of publication.
    Question 4. Is there a current backlog in background investigations 
for security clearances? If so, how numerous is the backlog and what 
effect does the sequestration have on this process?
    Answer. Response was not received at the time of publication.
    Question 5. How much of OPM's work is contracted out to private 
companies to complete background checks? How often are these 
contractors reviewed by OPM, in terms of quality control of their 
product?
    Answer. Response was not received at the time of publication.
    Question 6. What difficulties are created by the substantial 
dependence of OPM on contractors to execute background checks and what 
are the benefits of that dependence?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Peter T. King for Gregory Marshall
    Question 1. How successful has DHS been at producing quality 
results in security clearance background checks and by what measure do 
use to make this assessment?
    Answer. DHS has a successful and robust suitability and security 
program. To measure the quality of the background investigations, DHS 
relies on its trained adjudicative staff to review the investigative 
product for completeness and to render the adjudicative determination. 
DHS has incorporated levels of review in the adjudicative process 
whereas senior-level adjudicators, including managers, review the work 
of the lesser-experienced adjudicators to ensure quality and adherence 
to policy and guidelines.
    In addition, DHS, as an authorized investigative agency, adheres in 
the conduct of its security investigations to the Federal Investigative 
Standards. DHS is also an active participant in an Office of Personnel 
Management (OPM) and Office of the Director for National Intelligence 
Quality Assessment Working Group which was established to create a 
standard by which all investigating entities would assess quality 
investigations and develop a tool to make the assessment.
    Question 2. Where does DHS stand with regard to security clearance 
reciprocity, i.e. are you completely accepting security clearances at 
all levels for individuals coming from other Federal agencies? If not, 
what is your reasoning for not yielding to reciprocity?
    Answer. DHS accepts security clearance reciprocity at all levels 
for individuals coming from other Federal agencies. However, based on 
the responsibilities of the positions, additional higher levels of 
investigation may be required, consistent with the OMB memoranda of 
December 12, 2005, July 17, 2006, and November 14, 2007, and the 
Intelligence Community Policy Guidance Number 704.4. Also, some law 
enforcement organizations utilize the polygraph for employment 
screening and personnel investigations for positions requiring a 
polygraph examination prior to entry into the position.
    Security reciprocity should not be confused with suitability or 
fitness for appointment, or, alternatively, the ability to meet a 
qualification standard in the hiring process. There are additional 
considerations that may need to be addressed in order for an applicant 
to gain employment. The following is a list of considerations that the 
Department must address:
  <bullet> Due to their mission, components that enforce drug laws--
        e.g., the U.S. Immigration and Customs Enforcement (ICE) and 
        the U.S. Customs and Border Protection (CBP)--must adhere to 
        more stringent guidelines on frequency and recency of illegal 
        drug use than other components.
  <bullet> Components that have weapon-carrying positions (e.g., ICE, 
        CBP, TSA, USSS, and FLETC) must adhere to the ``Lautenberg 
        Amendment'', which provides that it is unlawful ``for any 
        person to sell or otherwise dispose of any firearm or 
        ammunition to any person knowing or having reasonable cause to 
        believe that such person has been convicted in any court of a 
        misdemeanor crime of domestic violence.'' 18 U.S.C. 992(d)(9). 
        If an applicant were to be prohibited from possessing a firearm 
        or ammunition, under the Lautenberg Amendment, that applicant 
        would therefore be ineligible for the weapon-carrying position.
  <bullet> TSA is required to consider 28 statutory criminal types of 
        ``Disqualifying offenses that, if committed, would disqualify 
        an individual from employment with the agency.'' See listed in 
        49 U.S.C.  44936(b)(1)(B), eligible for employment with TSA.
  <bullet> OPM's regulations on suitability reciprocity contain 
        exceptions when, for example, the investigative record shows 
        conduct that is incompatible with the core duties of the 
        position. See 5 C.F.R. 731.202(d).
    While the Department adheres to security reciprocity, it must also 
comply with other laws affecting employment and suitability related to 
the specific requirements of the position.
    Question 3. It is the committee's understanding that the last stage 
of appeals for suspensions and revocations of security clearances are 
heard before a panel at the U.S. Secret Service for all security 
clearance-holders at DHS headquarters and its components. Why is this 
the case and why has this authority not been given to a panel comprised 
of DHS headquarter officials?
    Answer. In accordance with the requirement under Executive Order 
12968 that Federal agencies provide applicants and employees denied 
clearances the opportunity to appeal the decision, DHS leveraged the 
U.S. Secret Service as the Department's Security Appeals Board. The 
U.S. Secret Service has a robust and long-standing functioning Appeals 
Board. As the Board performed the functions appropriately and in 
accordance with all Federal guidelines, there was not an immediate need 
to change the composition of the Board. We will revisit the composition 
of the Board and determine potential adjustments to the practice.
    Question 4. Do you think that existing policies and processes 
related to reinvestigations of individuals who hold security clearances 
meet the ``appropriate level of rigor'' mentioned in your earlier 
testimony?
    Answer. DHS believes there are gaps in the process that create 
vulnerabilities to the Department. For one, the current interval for 
periodic reinvestigations (5, 10, 15 years depending on the level of 
clearance) is insufficient, though this has been addressed in the 2012 
Federal Investigative Standards approved and signed in December 2012, 
and will be implemented fully by 2017. Also, based on the level of 
reinvestigation and records collected, security offices are not always 
provided relevant information on individuals of incidents occurring in 
their employment. Another large gap is the lack of participation and 
timeliness of local law enforcement jurisdictions reporting criminal 
activity into the State and National repositories on which security 
investigators rely. We note that Congress expressed awareness of this 
issue when it recently passed the National Defense Authorization Act, 
2014, section 907 of which establishes a task force on records access 
composed of both Federal and State and local law enforcement officials 
to make recommendations for improving the degree of cooperation and 
records sharing. This issue is also being examined as part of the 
``120-day review'' of security and suitability policies and procedures 
now underway that the President has directed.
    Question 5. In your view, are reinvestigations currently conducted 
with the appropriate frequency (currently, 15, 10, and 5 years for 
Confidential-, Secret-, and Top Secret-level clearances, respectively), 
or should reinvestigations occur more frequently?
    Answer. The current policies for reinvestigations are not stringent 
enough due to the current time frames. Those policies had been in place 
since the late 1990s and were in need of reform. In December 2012 the 
Office of the Director of National Intelligence and the Office of 
Personnel Management jointly issued new Federal investigative standards 
establishing a 5-year reinvestigation cycle even for Confidential and 
Secret clearances. The new standards are subject to an implementation 
plan. Further, ODNI has been given authority under Executive Order 
13467 to develop the Continuous Evaluation (CE) program to evaluate 
National security risks involving cleared personnel between periodic 
reinvestigations, and the December 2012 Federal investigative standards 
require CE for Top Secret-cleared personnel. Likewise OPM is piloting 
the ``Rap Back'' program by which the FBI furnishes real-time arrest 
information on current employees. Full implementation of the 2012 
revised standards is expected by 2017. DHS is an active participant in 
Federal personnel security community discussions and activities to 
address the need for a more frequent/current review of individuals who 
hold security clearances, including continuous evaluation.
    Question 6. As you noted in your earlier testimony, background 
investigations only examine past behavior and may be an inadequate 
predictor of future behavior. One potential element of the Insider 
Threat Program is the use of analytics to identify and even predict 
potential breaches of information systems based on an individual's 
pattern of system access. Have you or other members of DHS's Chief 
Security Officer Council explored the possibility of using similar 
analytics or behavioral modeling techniques as part of the security 
clearance adjudication process?
    Answer. As personnel security is an integral part of the Insider 
Threat Program, DHS recognizes the need to use analytics in its 
personnel security process. Under the concept of Continuous Evaluation 
and Continuous Monitoring, personnel security will be more proactive in 
making individual assessments than the traditional reactive approach. 
The Continuous Evaluation will be a tool to evaluate patterns of 
behavior. DHS is awaiting guidance from the Office of the Director for 
National Intelligence (ODNI), as the Security Executive Agent, to 
release policy on the execution of the Continuous Evaluation model. 
ODNI, through the National Insider Threat Task Force, convenes various 
forums to assist departments and agencies as they work to establish 
their insider threat programs under Executive Order 13587 and the 
President's National insider threat policy and minimum standards. In 
the interim, the Department has held discussions with private firms 
that look at behavioral modeling through continuous evaluation to 
explore automated options and their availability/compatibility with 
current systems. DHS participated in a Department of Defense hosted 
Behavioral Analysis/Insider Threat Tabletop Exercise (TTX) to review 
best practices, including programs outside the U.S. Government, to 
determine whether elements of those programs could be adopted to detect 
persons who may pose a threat; as well as review leading edge tools and 
technologies that augment existing security processes and capabilities. 
A range of predictive analytics and risk assessment tools were 
discussed. For example, the Identity Management Enterprise Services 
Architecture (IMESA) was identified as a potential capability to 
continuously monitor personnel that have authorized access to DoD 
installations and assets against authoritative data sources. IMESA will 
enable the sharing of identity and physical access control information 
complementing on-going continuous evaluation concept demonstration 
efforts.
     Questions From Honorable Peter T. King for Brian A. Prioletti
    Question 1. Under Section 6 of Executive Order 13587, the 
Interagency Insider Threat Task Force is to conduct ``independent 
assessments'' of agencies' insider threat programs. What is the status 
of the task force's effort to develop procedures for these assessments? 
How many assessments has the task force conducted?
    Answer. Response was not received at the time of publication.
    Question 2. Could you summarize the results of those assessments? 
In your response, could you discuss the following: How many agencies 
have acceptable programs? How many do not? For agencies that do not 
have acceptable insider threat programs, what are the deficiencies?
    Answer. Response was not received at the time of publication.
    Question 3. What differences, if any, exist regarding the threat to 
National security posed by contractor employees with access to 
Classified material and Federal employees with access to Classified 
material?
    Answer. Response was not received at the time of publication.
    Question 4. Is there a need to expand the areas of risk factors 
when adjudicating security clearance applicants to address the issues 
that we have seen in recent events?
    Answer. Response was not received at the time of publication.
    Question 5. In your testimony, you mentioned the need for 
Continuous Evaluation for those persons that hold security clearances. 
Would this process be regulated by time frames or will they be 
triggered by information discovered about a security clearance holder 
by the agency security office?
    Answer. Response was not received at the time of publication.
    Question 6. What essential information do background checks neglect 
to include in the existing process, which depends largely on self-
reporting by the persons applying for a security clearance?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Peter T. King for Brenda S. Farrell
    Question 1. You mentioned in your testimony that agencies are 
``revisiting the Federal investigative standards.'' Can you explain the 
investigative standards that are currently being revisited by Federal 
agencies? Is the proposed OPM/ODNI rule one of the agency actions 
referred to in your statement?
    Answer. Response was not received at the time of publication.
    Question 2. What possible impact, if any, could the proposed OPM/
ODNI rule have on the overall security clearance background 
investigation process?
    Answer. Response was not received at the time of publication.
    Question 3. What elements of the security clearance process do you 
find the most problematic with regards to conducting fair and thorough 
background investigations?
    Answer. Response was not received at the time of publication.
    Question 4. In your research, have you found that agencies are 
fully complying with the guidelines for reciprocity? If not, what are 
the reasons for non-compliance?
    Answer. Response was not received at the time of publication.
    Question 5. In your testimony, you mentioned that your study 
involved looking into the metrics needed to measure quality of the 
security clearance process. Are there any agencies in particular that 
stood out as doing at least a fairly exceptional job with measuring its 
process quality and if so, why is this the case with that particular 
agency and not others?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
